                              SOCIAL SECURITY
                                      August 8, 2008


The Honorable Michael R. McNulty
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

I am pleased to provide you with the enclosed report addressing your
December 18, 2007 request that we provide information related to administrative law
judge (ALJ) and hearing office performance. This report contains information related to

•   statistics of ALJ dispositions;
•   statistics of ALJ and hearing office processing times;
•   factors that affect ALJ and hearing office performance;
•   an identification and assessment of the management tools used by Office of
    Disability Adjudication and Review officials to oversee ALJ performance; and
•   management initiatives to support increases in ALJ productivity.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Jonathan Lasher, Deputy Chief Counsel for External Relations,
at (410) 965-7178.

                                                 Sincerely,




                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General

Enclosure

cc:
Michael Astrue
Representative Johnson




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
                              SOCIAL SECURITY
                                      August 8, 2008


The Honorable Sam Johnson
Ranking Member, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Representative Johnson:

I am pleased to provide you with the enclosed report addressing your
December 18, 2007 request that we provide information related to administrative law
judge (ALJ) and hearing office performance. This report contains information related to

•   statistics of ALJ dispositions;
•   statistics of ALJ and hearing office processing times;
•   factors that affect ALJ and hearing office performance;
•   an identification and assessment of the management tools used by Office of
    Disability Adjudication and Review officials to oversee ALJ performance; and
•   management initiatives to support increases in ALJ productivity.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Jonathan Lasher, Deputy Chief Counsel for External Relations,
at (410) 965-7178.

                                                 Sincerely,




                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General

Enclosure

cc:
Michael Astrue
Chairman McNulty




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

  Administrative Law Judge
            and
  Hearing Office Performance

         A-07-08-28094




          August 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               Executive Summary
OBJECTIVE

The objective of our review was to address the requests of Congressmen
Michael R. McNulty and Sam Johnson regarding administrative law judge (ALJ) and
hearing office performance. Specifically, the Congressmen requested information on
(1) factors that affect ALJ and hearing office performance, (2) Office of Disability
Adjudication and Review (ODAR) management tools, and (3) Social Security
Administration (SSA) initiatives to increase ALJ productivity.

RESULTS OF REVIEW

SSA is facing the highest number of pending cases and highest average case
processing times since the inception of the disability programs. As of April 2008, there
were over 755,000 cases awaiting a decision at the hearings level. Further, Fiscal Year
(FY) 2008 ALJ processing times averaged 505 days, as of April 2008. While the
average number of cases processed per ALJ has increased from FY 2005 to FY 2007,
some ALJs continue to process cases at levels below Agency expectations.

We interviewed the Chief ALJ, 9 Regional Chief ALJs, 143 ALJs, and 146 hearing office
staff members to identify factors that may impact ALJ and hearing office productivity
and processing times. Specifically, at each of 49 hearing offices, we interviewed a
lower or higher producing ALJ, the Hearing Office Chief ALJ, one additional
mid-producing ALJ, the Hearing Office Director, a Senior Attorney Advisor, and a Senior
Case Technician. Our interviews disclosed that ALJs have varying levels of productivity
(both high and low productivity) for internalized reasons, such as motivation and work
ethic. However, we also identified factors that can impact ALJ and hearing office
productivity and processing times that are part of the case adjudication process. These
factors relate to disability determination services (DDS) case development, staff levels,
hearing dockets, favorable rates, individual ALJ preferences, and Agency processes.
However, we did not determine whether these factors impacted the legal sufficiency of
ALJs’ dispositions as it was beyond the scope of this review.

Chief ALJs use management tools and practices to oversee ALJ performance. While
SSA can take disciplinary actions against ALJs, the actions taken in the past 3 years
have been primarily related to conduct rather than performance. However, there are
actions pending against ALJs on issues related to performance.

SSA has undertaken 37 initiatives to eliminate the backlog and prevent its recurrence.
Many of these initiatives directly relate to the factors identified during our interviews as
impacting ALJ productivity and processing times. Specifically, the announcement of a
productivity expectation, hiring ALJs and staff, new automation, remanding cases to
DDSs, and quality assurance improvements will impact the productivity and efficiency of
ALJs and hearing offices.



Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                                   Table of Contents
                                                                                                                                      Page

BACKGROUND ...................................................................................................................1

RESULTS OF REVIEW .......................................................................................................2

Case Dispositions ................................................................................................................2

Case Processing Times .......................................................................................................3

Factors That Impact Productivity and Processing Times .....................................................3

     •    Internal Factors ........................................................................................................4
     •    Disability Determinations Services ...........................................................................5
     •    Staff ..........................................................................................................................5
     •    Hearing Dockets .......................................................................................................7
     •    Favorable Rates .......................................................................................................8
     •    Individual ALJ Preferences ......................................................................................9
     •    Agency Processes .................................................................................................14

Management of ALJ Performance .....................................................................................17

     •    Management Tools ................................................................................................17
     •    Disciplinary Actions ................................................................................................18

Management Initiatives ......................................................................................................18

     •    Productivity Expectation .........................................................................................19
     •    Hiring ALJs and Staff .............................................................................................19
     •    New Automation: Electronic Folder ........................................................................20
     •    New Automation: ePulling ......................................................................................20
     •    DDS Informal Remand Project ...............................................................................21
     •    Quality Assurance ..................................................................................................22

CONCLUSIONS ................................................................................................................24

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Average Dispositions per Administrative Law Judge per Hearing Office by
             Fiscal Year
APPENDIX D – Factors That Impact Productivity
APPENDIX E – Administrative Law Judge Disciplinary Actions
APPENDIX F – Location of New Administrative Law Judges
APPENDIX G – Fiscal Year 2007 Daily Receipts and Pending Cases per Administrative Law
             Judge
APPENDIX H – Social Security Administration Initiatives


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                             Background
OBJECTIVE
The objective of our review was to address the requests of Congressmen
Michael R. McNulty and Sam Johnson regarding administrative law judge (ALJ) and
hearing office performance. Specifically, the Congressmen requested information on
(1) factors that affect ALJ and hearing office performance, (2) Office of Disability
Adjudication and Review (ODAR) management tools, and (3) Social Security
Administration (SSA) initiatives to increase ALJ productivity.

BACKGROUND
Under the leadership of SSA’s Deputy Commissioner for ODAR, the Office of the Chief
ALJ (OCALJ) is responsible for management oversight of SSA’s national hearing
operation. OCALJ has a workforce of over 6,000, including over 1,100 ALJs. With
10 regional offices led by Regional Chief ALJs (RCALJ) and over 140 hearing offices
led by Hearing Office Chief ALJs (HOCALJ), SSA’s hearing operation conducts due
process hearings and issues decisions on appealed determinations involving
Retirement, Survivors, Disability, and Supplemental Security Income. With over
500,000 decisions issued each year, ODAR is considered one of the largest
administrative judicial systems in the world.

SSA’s disability programs have grown significantly over the last 5 years and will
continue to do so at an increasing rate as aging baby boomers reach their most
disability-prone years. As a result, backlogs of disability cases have formed, particularly
at the ALJ hearing level. The number of cases awaiting a decision from an ALJ has
risen from over 463,000 at the end of Fiscal Year (FY) 2002 to over 755,000 at the end
of April 2008. 1

In a December 18, 2007 letter, the Chairman and Ranking Member of the House of
Representatives’ Committee on Ways and Means, Subcommittee on Social Security,
requested the Office of the Inspector General (OIG) review factors related to ALJ and
hearing office performance. Specifically, the Congressmen requested (1) ALJ case
disposition statistics, (2) ALJ and hearing office processing time statistics, (3) specific
reasons disposition numbers and processing times vary among ALJs, (4) an
identification and assessment of management tools used to oversee ALJ performance,
including disciplinary actions against ALJs, and (5) management initiatives SSA has
taken or intends to take to support increases in ALJ productivity. See Appendix B for
the Scope and Methodology of our review.




1
    All references to dispositions and cases in this report pertain to SSA cases and not Medicare cases.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                    1
                                                         Results of Review
This review presents statistics on ALJ and hearing office dispositions and processing
times. Further, we present various factors that can impact hearing office and ALJ
productivity and processing times. We also present information on the management
tools ODAR uses to oversee ALJ performance along with recent disciplinary actions
taken against ALJs. Finally, we present the status of initiatives SSA has in-process or
planned to help reduce the backlog of disability cases and prevent its recurrence.

CASE DISPOSITIONS
                                                                       Table 1
The average number of case dispositions issued          Dispositions Issued in FY 2007
per ALJ increased 13 percent from FY 2005 to
                                                        Number of Cases     Number of ALJs
FY 2007 (see Appendix C, page C-5 for
dispositions per ALJ in FYs 2005 through 2007).           100 or Fewer            48
Specifically, in FY 2005, ALJs issued an average            101-200               47
of 421 dispositions each, while in FY 2007, ALJs            201-300               85
                                             2
issued an average of 474 dispositions each.                 301-400              190
According to the Commissioner of Social Security,           401-500              291
for most of this decade, SSA has created rules              501-600              263
and incentives focused solely on the most                   601-700              123
prominent metric for measuring the backlog – total          701-800               59
cases pending. 3 Therefore, ALJs have been                  801-900               15
focused on issuing more dispositions each year to          901-1,000              17
reduce the backlog. ODAR issued 547,951
                                                        More  than 1,000          17
dispositions in FY 2007. 4 These dispositions were
                                                              Total            1,155
issued by 1,155 ALJs. 5 These ALJs issued case
dispositions ranging from a low of 1 per year to a high of 2,592 per year (see Table 1).

2
  These averages include dispositions issued by all ALJs each year, regardless of whether the ALJ was
full-time, part-time, new, or on extended leave or retired, separated, resigned, or died in FY 2007.
3
 Statement of Michael J. Astrue, Commissioner of Social Security, testimony before the House Ways and
Means Committee, April 23, 2008.
4
  The 547,951 dispositions issued in FY 2007 include cases remanded to Disability Determination
Services (DDS) with final dispositions issued in FY 2007 (see page 21 of this report for a discussion of
the Informal DDS Remand Project). Further, the 547,951 dispositions issued in FY 2007 does not include
cases adjudicated by Senior Attorney Advisors because Senior Attorneys did not begin issuing
dispositions until November 2007 (see Appendix H, page H-1 for a description and status of the
Adjudication by Attorney Advisors initiative).
5
 ODAR’s workload reports identify ALJ full-time equivalents. However, for our review, we did not use
ALJ full-time equivalents. Rather, we obtained a data file from ODAR’s Case Processing and
Management System of case dispositions issued. This data file identified the number of ALJs that issued
case dispositions each year. For example, the FY 2007 ODAR workload reports identified ALJ full-time
equivalents as 1,082.46. However, the data file identified 1,155 ALJs as issuing the 547,951 case
dispositions in FY 2007.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 2
CASE PROCESSING TIMES
Average times for case processing have increased 16 percent from 443 days in
FY 2005 to 512 days in FY 2007 (see Appendix C, Page C-5 for average processing
times during FYs 2005 through 2007). SSA                         Table 2
attributes the increased processing times to         FY 2007 Average Processing
increased hearing requests and insufficient                    Time by ALJ
resources. In FY 2007, the average processing        Processing Time
time for individual ALJs ranged from a low of                           Number of ALJs
                                                          (Days)
63 days to a high of 1,220 days (see Table 2).         100 or Fewer          1
                                                                    101-200                   5
Of ODAR’s 141 hearing offices, there were                           201-300                  35
22 hearing offices (16 percent) with average                        301-400                 222
processing times that exceeded the national
                                                                    401-500                 376
average of 512 days by 100 days or more in
                                                                    501-600                 297
FY 2007 (see Appendix C for average processing
                                                                    601-700                 151
times of all hearing offices). ODAR ranked
15 (68 percent) of these 22 hearing offices in the                  701-800                  51
lower half of all hearing offices for dispositions                  801-900                  13
issued per ALJ per day in FY 2007, meaning that                    901-1,000                  2
these offices had lower productivity as compared                 More than 1,000              2
to other hearing offices in the nation.                               Total               1,155

FACTORS THAT IMPACT PRODUCTIVITY AND PROCESSING TIMES
There are factors that can impact the number of dispositions ALJs and hearing offices
issue. For example, of the 1,155 ALJs who issued dispositions in FY 2007, 95 ALJs
issued fewer than 200 dispositions (see Table 1 on page 2 of this report). Of these
95 ALJs, 1 was the Deputy Chief ALJ 6 and 5 were RCALJs who perform management
functions in addition to case adjudication; 13 were part-time, new, or on extended leave;
and 54 retired, separated, resigned, or died. The remaining 22 ALJs were full-time and
worked during all of FY 2007. We interviewed 21 of these 22 ALJs to identify possible
factors that may have impacted their productivity. 7 To ensure we interviewed ALJs in
each of ODAR’s 10 regions, we also interviewed 8 additional ALJs who were among the
lowest producers in their region. 8 These 8 ALJs issued between 206 and
386 dispositions in FY 2007.




6
 The Deputy Chief ALJ issued nine dispositions as a RCALJ in early FY 2007 prior to becoming the
Deputy Chief ALJ.
7
 We did not interview 1 of the 22 ALJs because of an ongoing OIG investigation being conducted at the
hearing office where this ALJ was located.
8
 These eight ALJs were not RCALJs, new, part-time, or on extended leave in FY 2007 and did not retire,
separate, resign, or die in FY 2007.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 3
In addition to the 29 lower producing ALJs, we also interviewed 31 higher producing
ALJs. 9 Specifically, we interviewed 21 ALJs who were the highest producers in
FY 2007. These ALJs issued between 974 and 2,592 dispositions in FY 2007. To
ensure ALJs were interviewed in each of ODAR’s regions, we interviewed 10 ALJs that
were among the highest producers in their region. These ALJs issued between 702 and
928 dispositions in FY 2007.

Finally, we interviewed the Chief ALJ, 9 RCALJs, 10 48 mid-producing ALJs, and
146 hearing office staff. Specifically, at each of 49 hearing offices where we interviewed
either a lower or higher producing ALJ, we interviewed the HOCALJ, one additional
mid-producing ALJ, the Hearing Office Director, a Senior Attorney Advisor, 11 and a
Senior Case Technician. 12,13

Our interviews disclosed that some ALJs had varying levels of productivity (both high
and low) for internalized reasons, such as motivation and work ethic. However, we also
identified factors that can impact ALJ and hearing office productivity and processing
times that are part of the case adjudication process. These factors relate to DDS, staff,
hearing dockets, favorable rates, individual ALJ preferences, and Agency processes. 14
However, we did not determine whether these factors impacted the legal sufficiency of
ALJs’ dispositions as it was beyond the scope of this review.

Internal Factors

Our interviews disclosed that ALJs have varying levels of productivity due to factors
such as motivation and work ethic. In fact, our interviews with RCALJs disclosed that
motivation and work ethic were one of the main factors that contributed to higher or
lower productivity. In fact, one RCALJ we interviewed stated a lower producing ALJ
was not motivated to process more cases despite oral and written counseling, written


9
    Of these 31 high producing ALJs, 13 were HOCALJs.
10
  There are 10 regional ODAR offices; however, at the time of our interviews, the Region 8 RCALJ was
also the Acting RCALJ for Region 7.
11
  A Senior Attorney Advisor renders advice and assistance to ALJs in preparation of cases for hearing;
conducts formal conferences with claimant representatives; analyzes, researches, and develops cases;
and prepares comprehensive written decisions.
12
  A Senior Case Technician provides legal and technical support to ALJs in the processing of cases and
develops a request for hearing from its receipt in the office to its completion, independently performing a
wide range of case development actions.
13
  We interviewed 48 HOCALJs, 48 Hearing Office Directors, and 48 additional mid-producing ALJs
because 1 hearing office did not have a HOCALJ, 1 office did not have a Hearing Office Director, and
1 office did not have an additional mid-producing ALJ available for us to interview. See Appendix B for
the Scope and Methodology of our review.
14
   See Appendix D for a summary of the factors that impacted the higher and lower producing ALJs we
interviewed.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                       4
directives, and reprimands. SSA is currently taking action to suspend this ALJ. 15
However, given that these factors are internal to individual ALJs, we could not easily
measure the impact motivation and work ethic had on ALJ and hearing office
productivity and processing times.

Disability Determination Services

ALJs and Hearing Office staff at all levels stated DDS allowance rates and the quality of
case development from DDSs can impact ALJ and hearing office productivity and
processing times. For example, hearing offices likely have more requests for hearing if
they are located in states with DDSs that deny more initial claims. As a result, ALJs in
these hearing offices may have higher favorable rates. 16 Further, the length of time
ALJs spend reviewing cases prior to a hearing may be impacted by the extent that the
DDS developed the case. 17 Despite the comments from ALJs and hearing office staff,
we did not have data to evaluate the extent that the practices of individual DDSs had on
the performance of ALJs and hearing offices.

Staff

ALJs are supported by hearing office staff who conduct initial case screening and
preparation, maintain a control system for all hearing office cases, conduct pre-hearing
case analysis, develop additional evidence, schedule hearings, and prepare notices and
decisions for claimants. 18 Based on our interviews and analysis, it appears that support
staff ratios may be one factor that impacts ALJ and hearing office productivity and
processing times. 19

When comparing the staff ratios of the 49 hearing offices where we conducted
interviews to the FY 2007 ODAR national average staff ratio of 4.46 staff members per
ALJ, we found that the higher producing ALJs were more likely to be located at hearing
offices with staff ratios above the national average. Specifically,




15
  See page 18 of this report for a discussion of Disciplinary Actions and Appendix E for a list of recent
disciplinary actions against ALJs.
16
     See page 8 of this report for a discussion of Favorable Rates.
17
     See page 9 of this report for a discussion on Time Spent Reviewing Cases.
18
     See HALLEX, Chapter I-2-0-5 C.
19
  We made this observation in our March 2005 audit The Effects of Staffing on Hearing Office
Performance (A-12-04-14098) where we recommended that SSA consider developing an ideal national
staff ratio (http://www.ssa.gov/oig/ADOBEPDF/A-12-04-14098.pdf).


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                     5
•     16 (52 percent) of the 31 higher producing ALJs we interviewed were located at
      hearing offices with staff ratios above the national average and 20
•     5 (17 percent) of the 29 lower producing ALJs we interviewed were located at
      hearing offices with staff ratios above the national average. 21

Our interviews with hearing office staff also identified staffing levels as a factor that
impacts ALJ and hearing office productivity and processing times. 22 In fact, all 48 of the
Hearing Office Directors we interviewed stated that staff ratios had a significant impact
on productivity and processing times. Further, hearing office staff in 39 of the 49 offices
where we conducted interviews stated that additional staff was needed.

When comparing the staff ratios of all 141 hearing offices to the FY 2007 ODAR
national average staff ratio of 4.46, we found that the hearing offices that ODAR ranked
in the top half for productivity were much more likely to exceed the national average
staff ratio than hearing offices ranked in the lower half for productivity. Specifically,

•     63 percent of the hearing offices ranked in the top half for productivity had a staff
      ratio greater than 4.46 and
•     38 percent of the hearing offices ranked in the lower half for productivity had a staff
      ratio greater than 4.46.

The number of staff needed to fully support an ALJ will be impacted by the various
management initiatives SSA has planned to reduce the disability backlog (see
page 18 of this report for a discussion of these initiatives). 23 Further, our interviews
disclosed that, in addition to an adequate number of staff, the quality and composition of
the staff can also impact productivity. For example, an office may have an ideal staff
ratio, but if it does not have enough writers to prepare decisions or if the writers do not
prepare quality decisions, the hearing office’s productivity may be impacted negatively.




20
   See Appendix D, Table 2 for the higher producing ALJs we interviewed who were located at hearing
offices with staff ratios below the national average in FY 2007.
21
   See Appendix D, Table 1 for the lower producing ALJs we interviewed who were located at hearing
offices with staff ratios below the national average in FY 2007.
22
  We interviewed 146 hearing office staff, which included 48 Hearing Office Directors, 49 Senior Attorney
Advisors, and 49 Senior Case Technicians.
23
     Supra note 3.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 6
Hearing Dockets

An ALJ’s docket refers to the number of hearings an ALJ has scheduled during a given
timeframe. 24 ALJs inform hearing office staff of the number of hearings they want
scheduled during a month along with the specific days and times to schedule the
hearings. 25 The requested number of hearings is typically provided to the staff about
3 months in advance so they can identify the cases that are ready for hearings.

Our interviews disclosed that 16 (55 percent) of
                                                                                  Table 3
the 29 lower producing ALJs sometimes did not
                                                                    FY 2007 Staff Ratios in Hearing
have as many hearings scheduled as they had
                                                                      Offices Where ALJs Report
requested. Further, 11 of these 16 lower
                                                                    Inability to Fill Hearing Dockets
producing ALJs (39 percent of the 29 lower
                                                                     Hearing Office      Region     Staff Ratio
producing ALJs interviewed) stated that this was a
                                                                    Charlotte              4           4.26
regular occurrence (see Appendix D, Table 1).
Eight of these 11 ALJs were located in offices                      Denver                 8           4.49
where we interviewed other ALJs who expressed                       Houston                6           4.29
the same concern. The hearing offices listed in                     Kansas City            7           4.20
Table 3 had at least two ALJs inform us that they                   Oklahoma City          6           3.52
regularly did not have as many hearings                             Pasadena               9           3.63
scheduled as they had requested.                                    Portland               10          3.73
                                                                    San Diego              9           3.91
During our interviews, ALJs stated the main
reason not enough hearings were scheduled was because of insufficient support staff to
prepare cases. Our analysis of staff ratios confirmed the lack of support staff may have
impacted the ability of these eight hearing offices to schedule as many hearings as the
ALJs requested. Specifically, in FY 2007, seven of these eight offices had staff ratios
less than the 4.46 national average (see Table 3).

Only 7 (23 percent) of the 31 higher producing ALJs stated they regularly did not have
as many hearings scheduled as they requested (see Appendix D, Table 2). However,
only three of these seven ALJs were located in offices where we interviewed other ALJs
who expressed this concern (Fort Wayne, Indiana; Knoxville, Tennessee; and
Oklahoma City, Oklahoma). These three ALJs also stated that the main reason enough
hearings were not scheduled was because of insufficient support staff to prepare cases.
In fact, the staff ratios for the Knoxville and Oklahoma City Hearing Offices were below
the 4.46 national average.



24
  For the purposes of this report, we refer to this as a hearing docket. However, an ALJ’s docket may
also refer to the number of cases assigned to the ALJ at any point in time, regardless of what stage of
case processing each case is in.
25
  The Commissioner plans to issue a Notice of Proposed Rulemaking that will change Parts 404 and
416 of 20 CFR to state that SSA, rather than the individual ALJ, will set the time and place for a hearing.
The intent of this change is to give hearing offices greater flexibility in scheduling hearings and is part of
SSA’s plan to increase efficiency in the hearing process and reduce the backlog of cases.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                          7
Our interviews with Hearing Office Directors and Senior Case Technicians also
identified that there were times when ALJs did not have as many hearings scheduled as
requested. In fact, 27 of the 48 Hearing Office Directors and 31 of the 49 Senior Case
Technicians we interviewed stated this concern. Further, 22 of these individuals stated
this was a regular occurrence. Like the ALJs, the Hearing Office Directors and Senior
Case Technicians stated the main reason not enough hearings were scheduled was
because of insufficient support staff to prepare cases.

Favorable Rates

Our analysis found that higher producing ALJs had higher favorable rates than lower
producing ALJs. Specifically, the higher producing ALJs we interviewed had an
average favorable rate of 72 percent whereas the lower producing ALJs we interviewed
had an average favorable rate of 55 percent (see Table 4).

Our comparison of the favorable rates of the ALJs we interviewed to the FY 2007 ODAR
national average favorable rate of 62 percent found that the higher producing ALJs were
the most significant contributors to ODAR's favorable rate. Specifically,

•    20 (65 percent) of the 31 higher producing ALJs we interviewed had favorable rates
     above the national average and 26
•    9 (31 percent) of the 29 lower producing ALJs we interviewed had favorable rates
     above the national average (see Table 4). 27

The higher producing ALJs achieved a higher favorable rate through on-the-record
(OTR) decisions. 28 In fact, the higher producing ALJs had an average OTR rate of
35 percent while the lower
                                                         Table 4
producing ALJs had an
                                     FY 2007 Percentages of Favorable and On-the-
average OTR rate of
                                   Record Decisions for Higher and Lower Producing
11 percent (see Table 4).
                                                     ALJs Interviewed
Cases that are decided OTR
                                     ALJ       Average  Percent of ALJs with Percent of On-
take less time because the        Production  Favorable  Favorable Rate 62    the-Record
decision should be more             Level       Rate      Percent or Higher    Decisions
obvious and does not                Higher      71.50          64.52             34.97
require a hearing.                  Lower       54.73          31.03             11.21
Higher producing ALJs

26
  See Appendix D, Table 2 for the higher producing ALJs we interviewed who had favorable rates below
the national average in FY 2007.
27
  See Appendix D, Table 1 for the lower producing ALJs we interviewed who had favorable rates below
the national average in FY 2007.
28
  OTR decisions occur when the claimant has waived the right to a hearing or when an ALJ or staff
member has determined that a decision can be issued without holding a hearing. OTR decisions are
generally favorable. Of the 547,951 dispositions issued by all ALJs in FY 2007, 84,800 (15 percent) were
OTR, of which 81,602 (96 percent) were favorable.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                8
issued more OTR decisions because they were more proactive in screening cases for
OTR decisions than were lower producing ALJs. ODAR management encourages ALJs
to screen cases, which involves reviewing cases where the files have not been worked up
to determine whether an OTR decision can be made. 29 Of the 31 higher producing ALJs
we interviewed, 20 (65 percent) stated they regularly screen cases to identify OTR
decisions. However, only 10 (34 percent) of the 29 lower producing ALJs we interviewed
stated they regularly perform this screening.

Individual ALJ Preferences

During our interviews, the ALJs expressed individual preferences for processing cases.
We found that ALJs with certain preferences were more likely to be higher producing,
which can impact hearing office performance. These preferences include the amount of
time spent reviewing cases, the number of hearings scheduled, scheduling hearings
before case work-up, the length of hearings, the length of time to make decisions, use
of bench decisions, use of rocket dockets, and amount of edits to decision drafts.

Time Spent Reviewing Cases

ALJs review cases before holding hearings to determine the need for expert opinions or
additional evidence and become familiar with the case facts. Our interviews disclosed
that 30 of the 31 higher producing ALJs spent an average of 1 hour or less to review a
case. 30 However, 22 of the 29 lower producing ALJs took more than 1 hour (see
Appendix D, Table 1), with 7 (24 percent) of the 29 lower producing ALJs taking from
3 to 8 hours. Of the 48 mid-producing ALJs we interviewed, 44 took up to 2 hours to
review a case before the hearing. Therefore, the amount of time the lower producing
ALJs spent reviewing cases was a contributing factor for fewer dispositions. 31

Number of Hearings Scheduled

ALJs inform hearing office staff of the number of hearings they would like to hold in a
given timeframe. We found that higher producing ALJs requested more hearings to be
scheduled. Specifically, the higher producing ALJs we interviewed requested between




29
  To work up a case file, a hearing office employee must organize medical documents chronologically,
number documents, remove duplicate documents, ensure all pertinent documents are appropriately
labeled, and prepare an exhibit list of pertinent documents.
30
  See Appendix D, Table 2 for the higher producing ALJ we interviewed who took more than 1 hour to
review a case before the hearing.
31
  ODAR and SSA’s Office of Quality Performance are currently evaluating hearing-related task times.
However, as of May 2008, they had not determined what constitutes a reasonable amount of time for an
ALJ to review a case file before a hearing.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                9
10 and 50 hearings per week. However, the lower producing ALJs requested between
2 and 30 hearings per week (see Table 5). 32

Of the 48 HOCALJs we                                        Table 5
interviewed, 41 expected each              Number of Hearings Requested per Week by
ALJ to schedule at least 10 to            Higher and Lower Producing ALJs Interviewed
20 hearings per week. All of             Number of Hearings      Number of Higher    Number of Lower
the higher producing ALJs we             Requested per Week       Producing ALJs     Producing ALJs
interviewed met or exceeded                     1-4                     0                  3
the HOCALJs’ expectations for                   5-9                     0                  8
the number of hearings per                     10-14                    7                  7
                                               15-19                    9                  4
week. 33 However, only                         20-24                    4                  1
15 (52 percent) of the 29 lower                25-29                    3                  2
producing ALJs we interviewed                  30-34                    3                  1
met this expectation. 34                       35-39                    2                  0
                                               40-44                    0                  0
Interestingly, seven HOCALJs                   45-49                    2                  0
                                             Total33, 34                30                 26
we interviewed who had lower
producing ALJs did not have an expectation for the number of hearings each ALJ
should schedule per week. One HOCALJ stated, “I cannot hold ALJs accountable for a
certain number of hearings per week.”

Scheduling Hearings Before Work Up

Based on our interviews, higher producing ALJs are more likely to schedule hearings
before the case files are worked up. 35 Hearings must be scheduled at least 20 days in
advance because SSA policy requires the ALJ or hearing office staff to send the notice
of the scheduled hearing to the claimant at least 20 days before the hearing. 36 Of the
31 higher producing ALJs we interviewed, 22 (71 percent) will allow cases to be




32
  Some ALJs do not hold hearings every week. For these ALJs, we provided an average number of
hearings requested per week. For example, if an ALJ requested 20 hearings every other week, we
reported that this ALJ requested 10 hearings per week.
33
  None of the higher producing ALJs we interviewed requested fewer than 10 hearings per week (see
Appendix D, Table 2). One higher producing ALJ did not request a specific number of hearings.
34
 See Appendix D, Table 1 for the lower producing ALJs that requested fewer than 10 hearings per
week. Three lower producing ALJs did not request a specific number of hearings.
35
  To work up a case file, a hearing office employee must organize medical documents chronologically,
number documents, remove duplicate documents, ensure all pertinent documents are appropriately
labeled, and prepare an exhibit list of pertinent documents.
36
     HALLEX I-2-3-15.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                10
scheduled for hearing before the case files are worked up. 37 However, only
5 (17 percent) of the 29 lower producing ALJs we interviewed will allow cases to be
scheduled for hearing before the case files are worked up. 38

While ALJs would prefer to have case files worked up before hearings are scheduled,
this practice can have a positive impact on ALJ and hearing office productivity and
processing times because hearings can be scheduled sooner. Further, once the
hearings are scheduled, hearing office staff knows which cases to prepare for hearings.
Also, scheduling cases for hearing before work-up could alleviate ALJs not conducting
as many hearings because an insufficient number of cases were prepared.

Length of Hearings

Our interviews disclosed that higher producing ALJs held shorter hearings. The higher
producing ALJs we interviewed stated that hearings typically lasted less than 1 hour. 40
However, the lower producing ALJs we interviewed stated their hearings lasted from
30 minutes to over 1.5 hours                               Table 6
(see Table 6). Of the                     Length of Hearings of Higher and Lower
48 HOCALJs we interviewed,                        Producing ALJs Interviewed
33 (69 percent) expected              Typical Length of   Number of Higher Number of Lower
hearings to last less than                 Hearings        Producing ALJs  Producing ALJs
1 hour. 41 The ALJs who held        Less than 30 minutes         7               0
shorter hearings could hold          30 minutes – 1 hour         23              12
more hearings and had more            1 hour – 1.5 hours         0               15
                                         1.5 – 2 hours           0               2
time to review cases and
                    42                      Total 39             30              29
prepare decisions.




37
  See Appendix D, Table 2 for the higher producing ALJs we interviewed who did not allow cases to be
scheduled for hearing before the case files were worked up.
38
  See Appendix D, Table 1 for the lower producing ALJs we interviewed who did not allow cases to be
scheduled for hearing before the case files were worked up.
39
  One higher producing ALJ stated that the length of hearings depended on the complexity of the issue
and did not feel comfortable providing an average length of hearings.
40
  None of the higher producing ALJs we interviewed stated their hearings typically lasted longer than one
hour (see Appendix D, Table 2).
41
  See Appendix D, Table 1 for the lower producing ALJs we interviewed whose hearings typically lasted
longer than 1 hour.
42
   The length of hearings may be related to the use of medical and vocational experts. See page 14 of
this report for a discussion on the Use of Experts.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 11
Length of Time to Make Decisions

Our interviews disclosed that some ALJs had more difficulty making decisions on cases
after the hearings than other ALJs, which increases case processing times. Of the
31 higher producing ALJs we interviewed, 18 (58 percent) spent minimal time on cases
after the hearing, typically taking less than 1 hour to review the case and make a
decision. However, only 7 (24 percent) of the 29 lower producing ALJs we interviewed
made this statement. Further, 25 (52 percent) of the 48 mid-producing ALJs we
interviewed stated they spent minimal time on cases after the hearing. One higher
producing ALJ and 9 lower producing ALJs we interviewed stated they spent at least
1 hour on cases after the hearing, with 1 lower producing ALJ taking up to 10 hours to
make decisions (see Appendix D). 43 The ALJs who spent minimal time on cases after
the hearing stated they reviewed the file carefully before the hearing and made notes
during the hearing so they could quickly make a decision and write instructions to the
decision writers. 44

Bench Decisions

ALJs can issue bench decisions when they have sufficient evidence to support a fully
favorable decision at the hearing. ALJs who choose to make fully favorable decisions at
hearings are required to include a prescribed checksheet in the administrative record.
The checksheet sets forth the key data, findings of fact, and narrative rationale for the
decision. The checksheet is entered as an exhibit in the record when the ALJ
announces the fully favorable decision at the hearing. After the hearing, the ALJ issues
a written notice of the oral decision that incorporates by reference the findings of fact
and the reasons stated at the hearing. Bench decisions can be made on initial adult
disability cases for Title II or XVI; claims for disability benefits as a disabled widow,
widower, or surviving divorced spouse; or claims for Title XVI benefits by a child under
age 18. 45

Four (14 percent) of the 29 lower producing ALJs we interviewed issued bench
decisions in FY 2007 (ranging from 1 to 18 bench decisions during the year). 46
However, 18 (58 percent) of the 31 higher producing ALJs we interviewed issued bench




43
   There were 12 higher producing ALJs and 13 lower producing ALJs who did not specify the amount of
time they spent on cases after the hearing.
44
  As of May 2008, ODAR and Office of Quality Performance had not determined what constitutes a
reasonable amount of time for an ALJ to make a decision after a hearing. However, ODAR has a
benchmark of 7 days for ALJs to move cases to the next stage of case processing after a hearing has
been held.
45
     HALLEX I-5-1-17.
46
  See Appendix D, Table 1 for the lower producing ALJs we interviewed who did not issue bench
decisions in FY 2007.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                               12
decisions (ranging from 1 to 421 bench decisions during the year). 47 Five of the higher
producing ALJs and six of the lower producing ALJs who preferred not to issue bench
decisions stated that bench decisions do not save time and they believe it is faster to
prepare instructions for a decision writer.

Rocket Docket

Our interviews disclosed that some ALJs who held rocket dockets had higher
productivity. A rocket docket refers to scheduling several cases of unrepresented
claimants at the same date and time for the same ALJ since these cases are likely to be
dismissed or postponed. 48 For example, since unrepresented claimants are typically
less likely to appear at their hearings, rocket dockets allow ALJs to dismiss those cases
more timely, thus reducing the number of cases waiting to be scheduled for hearing.
The unrepresented claimants that do come to the hearing often decide during the
hearing that they want representation. Rocket dockets allow ALJs to postpone these
hearings for a later date once the claimant secures representation. ODAR does not
provide national implementation instructions for rocket dockets. Rather, each hearing
office uses rocket dockets according to their specific needs. One high producing
HOCALJ we interviewed stated that rocket dockets were one of the main reasons the
backlog in his hearing office was reduced. However, no data are maintained to indicate
whether rocket dockets are effective in managing caseloads.

Amount of Time Editing Decisions

The amount of time ALJs spend editing decision drafts prepared by decision writers
appeared to have an impact on productivity. Specifically, the lower producing ALJs we
interviewed were more likely
                                                        Table 7
to have substantial edits to
                                 Decisions Requiring Substantial Edits by ALJs
the decision drafts than the
                                                     Interviewed
higher producing ALJs we       Percent of    Number of                       Number of
interviewed. In fact,                                       Number of Mid-
                               Decisions       Higher                          Lower
12 (41 percent) of the 29                                   Producing ALJs
                               With Edits  Producing ALJs                  Producing ALJs
lower producing ALJs we          None             3                5              1
interviewed stated they had      1-25            26               30             12
substantial edits to over        26-50            1                7              3
50 percent of the decision       51-75            0                4              5
drafts prepared by the          76-100            0                1              7
                                      49
decision writers (see           Total            30               47             28

47
  See Appendix D, Table 2 for the higher producing ALJs we interviewed who did not issue bench
decisions in FY 2007.
48
  HALLEX I-2-3-15 requires the ALJ or hearing office staff to send the notice of the scheduled hearing to
the claimant at least 20 days before the hearing.
49
  One higher and one lower producing ALJ would not comment on the percentage of decisions requiring
substantial edits due to the varying abilities of the decision writers in their hearing offices. Also, one mid-
producing ALJ did not have edits to decision drafts because the ALJ wrote all of his own decisions.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                      13
Table 7 and Appendix D, Table 1). Conversely, none of the higher producing ALJs had
edits to more than 50 percent of their decisions (see Appendix D, Table 2).

The time ALJs spend editing draft decisions can take away from their time reviewing
other case files and holding hearings. The extent of edits on decision drafts may be
impacted by the individual ALJ’s preferences for written decisions. For example, in one
hearing office, we interviewed a higher and lower producing ALJ along with one
mid-producing ALJ who all used the same group of decision writers. According to our
interviews, the lower producing ALJ had substantial edits on 95 percent of the decision
drafts while the higher producing ALJ had substantial edits to less than 25 percent of
decision drafts. The mid-producing ALJ in this office had substantial edits on between
25 and 50 percent of drafts. Obviously, these ALJs had differing levels of expectations
for the decisions written in this office. 50

Agency Processes

There are certain aspects of the hearing process that an ALJ and hearing office staff
may not have as much control over but can impact ALJ and hearing office productivity
and processing times. These factors include the use of experts in hearings and
postponements of hearings. 51

Use of Experts

SSA policy requires that ALJs review all the evidence before a hearing to determine
whether a medical or vocational expert opinion is needed. ALJs must obtain the opinion
by requesting the medical or vocational expert either testify at a hearing or provide
answers to written interrogatories. 52 ALJs are given the discretion to determine when to
obtain a medical expert opinion unless one of the following applies, in which case ALJs
are required to obtain a medical expert opinion.

•     The Appeals Council or Court orders a medical expert opinion.




50
   The Findings Integrated Templates (FIT) Decision Writing System was designed to improve the
timeliness and accuracy of written decisions. We did not identify whether FIT was used to prepare the
decisions requiring substantial edits by ALJs we interviewed. However, at the end of FY 2007,
approximately 90 percent of decision writers nationwide were using FIT. See Appendix H for a
description and current status of the FIT initiative (page H-5) and the Continuing Decision Writer
Productivity Improvement initiative (page H-9).
51
  The request from the Congressmen inquired as to whether travel to remote hearing sites is a factor that
impacted ALJ productivity and processing times. However, our analysis did not disclose that travel to
remote sites had a measurable impact on productivity or processing times.
52
     HALLEX I-2-5-30.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 14
•     The ALJ needs to evaluate and interpret background medical test data. 53
•     The ALJ is considering a finding that the claimant’s impairment(s) medically equals a
      medical listing. 54

Although ALJs were given discretion on when to use medical experts in many cases,
some ALJs used medical experts at nearly all their hearings. In fact, 6 (21 percent) of the
29 lower producing ALJs we interviewed used medical experts in over half their hearings
in FY 2007 (see Appendix D, Table 1), which likely resulted in longer hearings (see Table
8). However, only 2 (6 percent) of the 31 higher producing ALJs we interviewed used
medical experts in more than half their hearings (see Appendix D, Table 2).

As with medical experts, ALJs are required to obtain a vocational expert opinion when
directed by the Appeals Council or Court. However, in all other circumstances, ALJs
have the discretion to obtain a vocational expert opinion. 55 All but one of the ALJs we
interviewed used vocational experts in their hearings to some extent. 56 In fact,
21 (72 percent) of the 29 lower producing ALJs we interviewed used vocational experts
in over half their hearings in FY 2007 (see Appendix D, Table 1), which likely resulted in
longer hearings (see Table 8). However, only 10 (32 percent) of the 31 higher
producing ALJs used vocational experts in more than half their hearings (see
Appendix D, Table 2).

                                           Table 8
                     FY 2007 Expert Use in Hearings by ALJs Interviewed
                            Use of Medical Experts                 Use of Vocational Experts
        Percent of   Number of    Number of    Number of     Number of    Number of     Number of
         Experts      Higher        Mid-         Lower        Higher         Mid-       Lowering
         Used in     Producing    Producing    Producing     Producing    Producing     Producing
        Hearings       ALJs         ALJs          ALJs         ALJs         ALJs          ALJs
          None           4            3             6            0             0             1
          1-25          25           32            14           12            10             3
          26-50          0            7             3            9             6             4
          51-75          2            5             3            8            22            16
         76-100          0            1             3            2            10             5
          Total         31           48            29           31            48            29

53
  HALLEX I-2-5-14 D. ALJs may request background medical test data when a medical report provided
by treating or other medical sources raises a question about the accuracy of the medical test results.
Examples of background medical test data include actual x-ray films that support radiologists’ reports of
x-rays or answer sheets or drawings that support a psychological test report. ALJs’ requests for
background medical test data should be rare.
54
     HALLEX I-2-5-34 B.
55
  HALLEX I-2-5-50 B. According to SSA, management information shows the use of vocational experts
correlates with legal sufficiency.
56
  One lower producing ALJ we interviewed issued four dispositions during FY 2007, but none involved
hearings. However, during our interview, we learned that this ALJ would use vocational experts in
hearings if required.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 15
Postponements

ALJs are required to postpone hearings if the claimant or their representative objects to
the time and place of the hearing. Specific circumstances where an ALJ must postpone
hearings include the following.

•     The claimant or representative objects to appearing by video teleconferencing.
•     The evidence supports one of the following
         o The claimant or representative is unable to attend or travel to the scheduled
             hearing because of a physical or mental condition, incapacitating injury, or
             death in the family.
         o If severe weather conditions make it impossible to travel to the hearing. 57

ALJs may postpone hearings under other circumstances if the claimant shows “good
cause.” In considering whether the claimant has shown “good cause,” the ALJ must
consider the reason for the requested postponement, the facts supporting the request,
and the impact of the proposed postponement on the efficient administration of the
hearing process. Examples of circumstances where an ALJ may postpone hearings if
good cause is shown include the following.

•     The claimant attempted to obtain a representative but needs additional time;
•     The representative was appointed within 30 days of the scheduled hearing and
      needs additional time to prepare for the hearing;
•     The representative has a prior commitment in court or at another administrative
      hearing;
•     A witness is unable to attend the scheduled hearing, and the evidence cannot be
      otherwise obtained;
•     Transportation is not readily available to the claimant; and
•     The claimant is unrepresented and unable to respond to the notice of hearing due to
      a physical, mental, educational, or linguistic limitation. 58

Although most of the ALJs we interviewed stated that less than 25 percent of their
hearings were postponed, we found that lower producing ALJs had more hearings
postponed. In FY 2007, 15 (52 percent) of the 29 lower producing ALJs we interviewed
had 25 percent or more of their hearings postponed while only 10 (32 percent) of the
31 higher producing ALJs we interviewed had 25 percent or more of their hearings
postponed (see Appendix D).

Postponements of hearings can lead to lower productivity and higher processing times
for ALJs and hearing offices. Postponements impact processing times because they
add to the overall time the case is awaiting a decision. Further, postponements can

57
     20 C.F.R. 404.936(e) and 416.1436(e).
58
     20 C.F.R. 404.936(f) and 416.1436(f). See also HALLEX I-2-3-10 E.2 and G.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                     16
impact productivity when offices or ALJs do not have cases ready to be processed in
place of postponed cases. In October 2007, the Chief ALJ sent a letter to ALJs
encouraging them to “…hold hearings unless a good reason exists to cancel or
postpone the hearing.”

MANAGEMENT OF ALJ PERFORMANCE
Chief ALJs at all levels use management tools and practices to oversee ALJ
performance. While SSA can take disciplinary actions against ALJs, the actions taken
in the past 3 years have been primarily related to conduct rather than performance.
However, there are actions pending against ALJs on issues related to performance.

Management Tools

The most prevalent tool used by management to oversee ALJs is ODAR’s Case
Processing and Management System (CPMS). CPMS includes numerous reports that
allow management to identify for each ALJ the number and types of dispositions issued,
the number of cases pending, the number of cases that exceed benchmarks, the current
status of each case, processing times, etc. The RCALJs and HOCALJs we interviewed
speak individually with ALJs to address concerns resulting from their review of CPMS
reports and offer assistance when needed. Further, the RCALJs and HOCALJs
periodically meet with ALJs to discuss management initiatives and office goals.

HOCALJs monitor the performance of the ALJs in their offices but to varying degrees.
Most of the HOCALJs we interviewed monitored the number of hearings each ALJ
scheduled and will meet with ALJs who schedule fewer than the HOCALJ expects. In
fact, five HOCALJs stated they actually approve the number of hearings ALJs schedule.
It appears this practice is beneficial since ODAR ranked 4 of these 5 HOCALJs’ offices
in the top 30 hearing offices for productivity. However, less than half the HOCALJs we
interviewed monitored the number of OTR decisions or bench decisions per ALJ, which
are factors we identified as having an impact on productivity and processing times. The
HOCALJs that do not perform this monitoring stated that it would intrude on an ALJ’s
decision-making process.

Interestingly, many of the hearing office staff we interviewed identified ALJ and staff
performance as an important case adjudication issue. 59 Specifically, the staff indicated
they were supportive of performance accountability. In fact, staff at 24 of the 49 offices
where we conducted interviews stated that ALJs and staff need to be held accountable
for their performance.




59
     Supra note 22.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                  17
Disciplinary Actions

The HOCALJs we interviewed acknowledged they can recommend disciplinary actions
against ALJs to RCALJs. In turn, RCALJs can take limited actions, such as written
counseling, but must recommend further disciplinary actions to the Chief ALJ. The
Chief ALJ can reprimand ALJs, but more significant disciplinary actions, such as
suspension and removal, typically must be approved by the Merit Systems Protection
Board (MSPB). 60

Only a few HOCALJs indicated they would make recommendations for disciplinary
actions based on performance issues, such as low productivity. Two HOCALJs and an
RCALJ stated that taking disciplinary actions against ALJs for any reason is difficult and
time-consuming. For example, one HOCALJ stated that it took 6 months to get a
reprimand for an ALJ who used profanity toward hearing office staff.

SSA initiated 31 disciplinary actions against 30 ALJs from FY 2005 to June 2008 (see
Appendix E). Most of these actions are primarily for conduct-related issues because
SSA had not yet identified sufficient support to take actions against an ALJ for
performance issues. However, two actions pending with the MSPB and one recent
reprimand involve performance-related issues.

Further, Chief ALJs at all levels provided oral and written counseling to ALJs, but ODAR
did not maintain centralized records documenting these actions. However, during our
interviews, we learned of specific instances where RCALJs and HOCALJs provided
counseling to ALJs for both conduct- and performance-related issues. Again, most of
the counseling was provided to ALJs for conduct issues. However, RCALJs stated they
were beginning to address performance issues more than they had in the past. One
RCALJ stated that the current Chief ALJ has been more supportive of taking actions
against ALJs for performance than were previous Chief ALJs.

MANAGEMENT INITIATIVES
In his testimony before Congress on May 23, 2007, the Commissioner outlined a four-
pronged plan to eliminate the backlog and prevent its recurrence. 61 The plan was
based on

      1.   compassionate allowances,
      2.   improving performance,
      3.   increasing adjudicatory capacity, and
      4.   increasing efficiency with automation and business processes.


60
     5 U.S.C. §7521(a).
61
 Statement of Michael J. Astrue, Commissioner of Social Security, testimony before the Senate Finance
Committee, May 23, 2007.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                            18
SSA has undertaken 37 initiatives to achieve each of the 4 aspects of the
Commissioner’s plan. 62 Many of these initiatives directly relate to the factors identified
during our interviews as impacting ALJ productivity and processing times. Specifically,
the announcement of a productivity expectation, hiring ALJs and staff, new automation,
remanding cases to DDSs, and quality assurance improvements will impact the
productivity and efficiency of ALJs and hearing offices.

Productivity Expectation

The most direct initiative to improve ALJ productivity was the Chief ALJ’s request that
ALJs issue between 500 and 700 dispositions per year. The Chief ALJ communicated
this request to all ALJs in October 2007. As of April 2008, 49 percent of the ALJs were
on track to meet this expectation in FY 2008. 63

Hiring ALJs and Staff

SSA was precluded from hiring ALJs because of an MSPB decision in 1999 that closed
the ALJ register. Other than a one-time exception in September 2001, SSA was
precluded from hiring ALJs until late 2003. When the register was closed, ODAR lost
almost 200 ALJs through normal attrition.

SSA has increased efforts to hire ALJs. In FY 2007, SSA hired 4 ALJs from other
agencies who all had prior SSA experience, 12 part-time senior ALJs, and 4 rehired
annuitant (full-time) ALJs. In February 2008, SSA hired 133 new ALJs (see Appendix F).
According to the Commissioner, the hearing offices where these ALJs will be located
were based, in part, on the correlation between the number of incoming case receipts per
ALJ and the number of cases pending. 64 In fact, 69 percent of the hearing offices with
both case receipts and cases pending per ALJ above the national averages received at
least one new ALJ (see Appendix G). ODAR has authority to hire 56 additional ALJs,
resulting in a total of 189 additional ALJs for FY 2008.

In addition to hiring ALJs, SSA must hire additional staff to support the ALJs. ODAR is
filling 230 staff positions, which will include management and support staff. According
to ODAR, the additional staff will be provided in phases as losses in the hearing offices
occur throughout FY 2008. Staffing allocations will be made to balance staffing needs
in each Region.




62
     See Appendix H for the current status of these initiatives.
63
   According to ODAR, some ALJs who are not on track to meet the 500-case expectation may be a result
of Union activities, extended leave, or special projects.
64
     Supra note 3.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                           19
•     In Phase I, ODAR Regional Offices were allocated 92 hires for immediate selection.
•     In Phase II, SSA distributed an additional 138 hires for immediate selection to
      backfill management losses to ALJ ranks, fill vacant management positions, and
      balance staff to ALJ ratios. To allow for maximum flexibility, each Region has
      identified critical staffing needs and SSA will target these hearing offices.

The Commissioner has stated that the number of staff needed to support a disposition
will change as SSA fully implements initiatives to reduce the backlog, but that number is
difficult to project with any certainty. Automating many clerical functions will reduce the
amount of time staff spend on more routine tasks and allow them to absorb additional
workloads. SSA is also working to standardize business processes, which should result
in additional staff efficiencies. The Commissioner stated he will continue to monitor the
appropriate staff to ALJ ratio as new processes are implemented. 65

New Automation: Electronic Folder

In FY 2007, ODAR transitioned from processing hearings using paper folders to
processing hearings using electronic folders. According to SSA, ODAR began
FY 2007 with 56,000 fully electronic folders. At the end of FY 2007, the volume of fully
electronic folders had grown to over 400,000 cases and, as of March 2008, about
73 percent of ODAR’s pending disability workload at the hearing level was electronic.
Transition to the electronic folder involved training for hearing office employees, a
learning curve associated with mastering a new process, working in a dual environment
with paper and electronic folders, and a labor-intensive certification process that
impacted all positions in the hearing office. At the same time, claimant representatives,
vocational and medical experts, and hearing reporters were introduced to the electronic
process.

ALJs stated that the electronic folder has slowed case processing. While some ALJs
indicated the slowdown is a result of the learning curve associated with the electronic
folder, other ALJs assert that processing cases with the electronic folder will always be
slower than with paper files. Specifically, some ALJs stated that it is faster to page
through a paper file than navigate through the screens and documents attached in the
electronic folder. ODAR has confirmed that there are general intermittent systems
performance issues, such as limited bandwidth causing periods of slow response times.
However, because the problems are intermittent, documentation of these occurrences
was not available from ODAR. Information was not available for us to determine the
impact the electronic folder has had on case processing times.

New Automation: ePulling

Our interviews with ALJs disclosed that there had been times when they could not hold
as many hearings as they would have liked because staff did not work up enough case
files. SSA is attempting to address this issue with its ePulling initiative. The electronic

65
     Supra note 3.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                   20
folder containing case documents requires manual sorting, reordering, and data entry of
information to support the hearing office’s business process. The information must be
manually examined and organized in a manner that is useful to those reviewing the
cases and to the ALJs hearing the cases. The goal of the ePulling project is to help
reduce hearing office backlogs by automating the case preparation process in the
electronic folder.

The ePulling initiative involves the use of customized software that can identify, classify,
and sort page level data, reorganize images after classification, and identify duplicates.
The software is being refined and integrated with SSA’s systems. A pilot of the software
began in June 2008 in the Model Process Test Facility in Falls Church, Virginia. The
pilot is being expanded to the Tupelo, Mississippi; Mobile, Alabama; Richmond, Virginia;
Minneapolis, Minnesota; and St. Louis, Missouri, Hearing Offices and National Hearing
Center in Falls Church, Virginia. Implementation of ePulling to all hearing offices is
anticipated in FY 2009, depending on the performance of the software at the pilot
locations.

ODAR estimates that it currently takes 3.5 hours to manually prepare an electronic
folder. However, ODAR estimates that with ePulling, it will take 2 hours to prepare a
folder, an average time savings of 1.5 hours per case. Even with ePulling, staff is
required to verify documents that the software flagged for manual review because the
software cannot extract data from handwritten documents. Additional activities required
by the staff include clarification of images, moving evidence to the exhibit list as
proposed exhibits for the hearing, developing the case for any required medical
evidence, arranging consultative exams, or other ALJ-requested evidentiary
development. Staff will be responsible for preparation of case summaries and
additional analysis for the ALJ. Staff will also continue to monitor for new electronic
submissions of evidence throughout the process until disposition of the case. 66

DDS Informal Remand Project

SSA is attempting to increase ODAR’s adjudicatory capacity and reduce paper case
backlogs by having State DDSs review certain cases based on profiles established by
OQP. Using these profiles, paper cases that have not been worked up by hearing office
staff are screened and remanded back to a DDS to determine whether a favorable
decision can be issued without a hearing.

Using overtime, DDSs review cases remanded by ODAR. If the DDS can make a fully
favorable determination, cases will return to the SSA field office where adjudication will
occur. If the claimant does not wish to pursue their request for hearing, ODAR will issue
a dismissal on the claim. If the DDS is not able to make a fully favorable decision, the
DDS will prepare the case for hearing and return the file to the hearing office. The
hearing office will give these cases priority for scheduling the hearings.



66
     We plan to conduct a separate review of ePulling to assess the results of the initiative.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                          21
According to SSA, in FY 2007, DDSs processed over 16,000 remands, 54 percent of
which were favorable decisions. From October 2007 to April 2008, DDSs received over
28,000 remands, concentrated in the States with the largest backlogs of paper cases:
New York, Georgia, North Carolina, Kansas, Michigan, Indiana, Florida, and Ohio.
DDSs have issued favorable determinations on 33 percent of these cases. At the end
of April 2008, there were approximately 4,000 remands pending at DDSs.

The results of this initiative continue to be analyzed to determine which of the profiled
cases resulted in the most favorable decisions. SSA has made the changes necessary
to allow fully electronic cases to be remanded to DDSs. Ten states have begun to test
the processing of electronic remands and some electronic cases were remanded to
DDSs in the third quarter of FY 2008.

Quality Assurance

SSA intends to develop and implement a quality assurance program for the hearing
process that will provide in line review of the claim file, the scheduling process, and
decision drafting to ensure that hearing offices provide timely and legally sufficient
hearings and decisions. The goals of the new quality assurance initiative are as follows.

1. Ensure all offices follow SSA policy.
2. Review selected cases before the hearing to ensure the process is in place to hold
   timely and legally sufficient hearings.
3. Review selected cases once a decision is drafted to ensure the decision and the
   case file support a timely and legally sufficient decision.
4. Provide feedback to management to make corrections in the processing of case
   files, to provide information for performance management, and to assist in identifying
   training needs.
5. Develop and maintain a standardized business process that ensures timely and
   legally sufficient hearings and decisions.

Regional Office personnel will be charged with the additional responsibility of
overseeing the quality assurance program. This initiative will be rolled out in three
phases: a review of Attorney Adjudicator decisions, 67 a review of decision drafts, and a
review of cases with a hearing scheduled but not yet held. Files will be reviewed for
certain criteria and appropriate recommendations made to management for correction.
Reports will be made and trends tracked for training purposes.




67
     See Appendix H, Page H-1 for a discussion of the Attorney Adjudicator initiative.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                  22
SSA is reviewing a sample of Senior Attorney Adjudicator decisions. According to SSA,
the first sample included 111 cases taken from decisions issued in November 2007.
Reviewers assessed the legal sufficiency of the written decisions and found that
95 percent were accurate. SSA is developing review sheets to capture data from the
reviews and serve as a means to track the information for trends and possible training
initiatives. SSA is also working on a formula for selecting cases for review.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)             23
                                                                  Conclusions
SSA is facing the highest number of pending cases and highest average case
processing times since the inception of the disability programs. As of April 2008, there
were over 755,000 cases awaiting a decision at the hearings level. Further, FY 2008
ALJ processing times were averaging 505 days, as of April 2008. While the average
number of cases processed per ALJ has increased from FY 2005 to FY 2007, some
ALJs continue to process cases at levels below agency expectations.

Our review identified factors that can impact the performance and processing times of
ALJs and hearing offices. Interviews with ALJs and hearing office staff disclosed the
factors impacting productivity included internalized reasons, such as motivation and the
personal work ethic of the ALJ. Further, there are other factors that impact ALJ and
hearing office productivity and processing times, such as DDS case development,
support staff ratios, the hearing offices’ ability to fill ALJ hearing dockets, and individual
ALJ preferences for processing cases. The Agency certainly needs to continue to look
at these factors and take actions to address those within their power.

The Commissioner of Social Security has been proactive in developing a plan to
improve many parts of the hearings process from employee performance to
improvements in processes. For example, ALJs have been given an expectation to
produce 500 to 700 cases per year. Further, initiatives are in process or planned for
improving automation within the hearings process. Finally, the Agency is taking a more
concerted approach to addressing performance problems through disciplinary actions.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                     24
                                           Appendices




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                          Appendix A

Acronyms
    ALJ              Administrative Law Judge

    ARPS             Appeals Review Processing System

    C.F.R.           Code of Federal Regulations

    CPMS             Case Processing and Management System

    DCO              Deputy Commissioner of Operations

    DDS              Disability Determination Services

    ERE              Electronic Records Express

    FIT              Findings Integrated Templates

    FY               Fiscal Year

    HALLEX           Hearings, Appeals, and Litigation Law Manual

    HOCALJ           Hearing Office Chief Administrative Law Judge

    MSPB             Merit Systems Protection Board

    NHC              National Hearing Center

    OCALJ            Office of the Chief Administrative Law Judge

    ODAR             Office of Disability Adjudication and Review

    OIG              Office of the Inspector General

    OQP              Office of Quality Performance

    OTR              On-the-Record

    RCALJ            Regional Chief Administrative Law Judge

    SSA              Social Security Administration

    U.S.C.           United States Code




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                                Appendix B

Scope and Methodology
To answer the Congressmen’s questions related to administrative law judge (ALJ) and
hearing office performance, we:

    •   Reviewed applicable Federal laws and regulations and pertinent parts of the
        Hearings, Appeals, and Litigation Law Manual related to ALJ hearings.

    •   Reviewed prior Office of the Inspector General, Government Accountability Office,
        and Social Security Advisory Board reports related to the ALJ hearings process.

    •   Reviewed Social Security Administration (SSA) status reports to gain an
        understanding of initiatives to eliminate the backlog and prevent its recurrence.

    •   Obtained data extracts from the Office of Disability Adjudication and Review’s
        (ODAR) Case Processing and Management System of 519,359 dispositions issued
        by ALJs in Fiscal Year (FY) 2005; 558,978 dispositions issued by ALJs in FY 2006;
        and 547,951 dispositions issued by ALJs in FY 2007.

    •   Interviewed the Chief ALJ in ODAR’s Office of the Chief ALJ (OCALJ).

    •   Interviewed the permanent or acting Regional Chief ALJs in all 10 ODAR regions.

    •   Interviewed 143 ALJs and 146 staff members at 49 hearing offices nationwide. 1
           o We interviewed 29 ALJs who were considered lower producing ALJs.
             Specifically, we selected 21 ALJs who were the lowest producers in
             FY 2007. These ALJs issued between 4 and 195 dispositions in FY 2007.
             In addition, to ensure ALJs were interviewed in each of ODAR’s 10 regions,
             we selected 8 ALJs that were among the lowest producers in their region.
             These ALJs issued between 206 and 386 dispositions in FY 2007.

           o We interviewed 31 ALJs who were considered higher producing ALJs.
             Specifically, we selected 21 ALJs who were the highest producers in
             FY 2007. These ALJs issued between 974 and 2,592 dispositions in
             FY 2007. In addition, to ensure ALJs were interviewed in each of ODAR’s
             regions, we selected 10 ALJs that were among the highest producers in
             their region. These ALJs issued between 702 and 928 dispositions in
             FY 2007.



1
 We ensured the ALJs we interviewed were available to be interviewed and did not include ALJs that
ODAR identified were part-time, new, on extended leave, retired, separated, resigned, or died.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                              B-1
            o We interviewed 48 additional mid-producing ALJs. Specifically, we selected
              an ALJ who was neither the highest nor lowest producing ALJ at each
              hearing office we visited. 2 These ALJs issued between 259 and
              664 dispositions in FY 2007.

            o We interviewed the Hearing Office Chief ALJs (HOCALJ) at 48 of the
              hearing offices we visited. 3 We interviewed 35 HOCALJs that were not
              identified as higher producing ALJs and 13 HOCALJs that were identified as
              higher producing.

            o We interviewed 146 hearing office staff members at the offices we visited.
              Specifically, we interviewed 48 Hearing Office Directors, 4 49 Senior
              Attorney Advisors, and 49 Senior Case Technicians.

The entity reviewed was OCALJ in ODAR. Our work was conducted at the Office of
Audit in Kansas City, Missouri; ODAR in Falls Church, Virginia; ODAR’s 10 Regional
Offices; and various hearing offices nationwide during January through April 2008. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.




2
  We visited 49 hearing offices, but one office did not have an additional mid-producing ALJ to select. In
this office, we interviewed a lower producing ALJ and the HOCALJ. The two other ALJs that issued
dispositions in this office in FY 2007 had retired.
3
 The Colorado Springs Hearing Office did not have a HOCALJ at the time our interviews were
conducted.
4
 The Sacramento Hearing Office did not have a Hearing Office Director at the time our interviews were
conducted.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                B-2
                                                                                                                                               Appendix C

       Average Dispositions per Administrative Law
       Judge per Hearing Office by Fiscal Year1
                                        Fiscal Year 2005                                            Fiscal Year 2006                                          Fiscal Year 2007
                         Dispositions




                                                        Dispositions




                                                                                     Dispositions




                                                                                                                  Dispositions




                                                                                                                                               Dispositions




                                                                                                                                                                             Dispositions
                                                                       Time (Days)




                                                                                                                                 Time (Days)




                                                                                                                                                                                            Time (Days)
                                                                       Processing




                                                                                                                                 Processing




                                                                                                                                                                                            Processing
                          Number of



                                            Number of




                                                                                      Number of



                                                                                                      Number of




                                                                                                                                                Number of



                                                                                                                                                                 Number of
                                                          per ALJ




                                                                                                                    per ALJ




                                                                                                                                                                               per ALJ
                                              ALJs




                                                                                                        ALJs




                                                                                                                                                                   ALJs
  Hearing Office




Albany, NY              3,640                  6         607            335          3,209               6         535            398          3,034                6         506            483
Albuquerque, NM         5,738                11          522            383          6,480             12          540            492          5,887              10          589            525
Alexandria, LA          4,975                  9         553            418          5,279             10          528            431          5,207              10          521            512
Atlanta, GA             3,547                11          322            686          3,502             12          292            791          4,334              13          333            900
Atlanta, GA (North)     3,452                11          314            532          4,152             12          346            655          4,470              12          373            751
Baltimore, MD           5,228                11          475            347          5,671             11          516            449          5,478              11          498            520
Billings, MT            2,570                  7         367            386          2,845               6         474            402          2,462                5         492            417
Birmingham, AL          8,315                16          520            456          7,891             17          464            499          8,241              15          549            557
Boston, MA              4,766                13          367            418          5,591             13          430            442          5,509              13          424            376
Bronx, NY               3,367                  7         481            636          3,533               7         505            572          4,145                7         592            594
Brooklyn, NY            4,927                12          411            554          5,457             11          496            548          6,052              11          550            506
Buffalo, NY             4,503                13          346            655          4,535             13          349            623          5,073              13          390            670
Centralized Screening
     2                  2,716                  2        1,358           102           952                3         317            154            81                 1          81            367
Unit
Charleston, SC          4,123                  9         458            365          4,571               9         508            431          4,146                7         592            476
Charleston, WV          4,770                11          434            328          4,898             10          490            384          4,400                8         550            311
Charlotte, NC           3,654                  9         406            499          3,905             10          391            548          4,633              11          421            627
Charlottesville, VA     2,966                  7         424            348          3,501               6         584            385          2,789                6         465            334
Chattanooga, TN         3,924                11          357            341          4,294             11          390            418          4,657              10          466            428
Chicago, IL             4,015                11          365            523          4,372             12          364            516          4,351              12          363            563
Cincinnati, OH          4,998                12          417            519          5,224             10          522            542          4,642              10          464            600
Cleveland, OH           4,897                18          272            616          5,298             15          353            584          5,284              12          440            599
Colorado Springs, CO    3,170                  5         634            496          2,949               5         590            492          2,825                5         565            480
Columbia, SC            3,997                  9         444            465          3,882               9         431            508          4,396                9         488            527
Columbus, OH            3,741                10          374            603          4,456             11          405            674          3,930              11          357            774
Creve Coeur, MO         7,360                11          669            334          7,030             11          639            344          5,768              10          577            404


       1
        We conducted interviews at the 49 highlighted hearing offices. See Appendix B for the Scope and
       Methodology of our review.
       2
        Employees in the Centralized Screening Unit screen cases from across the country for on-the-record
       decisions, with priority given to hearing offices with receipts and pending levels above the national
       average and support staff levels below the national average.




       Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                                                                               C-1
                                           Fiscal Year 2005                                            Fiscal Year 2006                                          Fiscal Year 2007




                            Dispositions




                                                           Dispositions




                                                                                        Dispositions




                                                                                                                     Dispositions




                                                                                                                                                  Dispositions




                                                                                                                                                                                Dispositions
                                                                          Time (Days)




                                                                                                                                    Time (Days)




                                                                                                                                                                                               Time (Days)
                                                                          Processing




                                                                                                                                    Processing




                                                                                                                                                                                               Processing
                             Number of



                                               Number of




                                                                                         Number of



                                                                                                         Number of




                                                                                                                                                   Number of



                                                                                                                                                                    Number of
                                                             per ALJ




                                                                                                                       per ALJ




                                                                                                                                                                                  per ALJ
                                                 ALJs




                                                                                                           ALJs




                                                                                                                                                                      ALJs
   Hearing Office




Dallas, TX (Downtown)       5,402               13          416            361          5,633             11          512            411          6,122              12          510            462
Dallas, TX (North)          5,331               14          381            488          6,034             14          431            537          5,616              13          432            605
Dayton, OH                  3,071                 7         439            507          3,064               7         438            599          2,828                6         471            677
Denver, CO                  5,868               13          451            400          5,504             10          550            428          4,711              11          428            467
Detroit, MI                 4,188               10          419            609          3,866             10          387            625          5,342              11          486            632
Dover, DE                   1,800                 5         360            311          1,989               5         398            458          1,641                4         410            479
Downey, CA                  1,732                 5         346            441          2,217               6         370            517          2,040                5         408            469
Elkins Park, PA             5,820               12          485            345          6,062             12          505            413          4,891              11          445            426
Eugene, OR                  2,657                 7         380            504          3,350               6         558            507          3,075                6         513            485
Evanston, IL                3,931               10          393            487          4,497             11          409            472          3,878              11          353            418
Evansville, IN              2,660                 6         443            397          2,014               4         504            446          2,153                4         538            567
Fargo, ND                   2,571                 6         429            381          2,717               6         453            397          2,321                6         387            434
Flint, MI                   3,147                 6         525            599          3,344               6         557            625          3,967                6         661            668
Florence, AL                4,346                 8         543            440          3,764               7         538            419          3,937                7         562            423
Fort Lauderdale, FL         4,978               13          383            507          5,112             14          365            448          4,852              12          404            431
Fort Smith, AR              2,034                 5         407            323          2,600               6         433            404          2,878                5         576            412
Fort Wayne, IN              3,646                 7         521            556          4,001               7         572            636          4,034                7         576            640
Fort Worth, TX              4,040                 8         505            387          4,495               8         562            449          4,351                8         544            429
Fresno, CA                  2,378                 9         264            442          3,717               9         413            519          3,221                7         460            494
Grand Rapids, MI            3,539                 9         393            458          4,019               7         574            562          3,900                7         557            674
Greensboro, NC              4,236                 9         471            460          4,833             10          483            539          5,017              10          502            605
Greenville, SC              4,163                 8         520            455          4,490               9         499            488          4,527              10          453            571
Harrisburg, PA              5,640                 7         806            315          5,722               7         817            299          5,229                7         747            265
Hartford, CT                2,240                 6         373            414          2,352               5         470            487          2,133                4         533            461
Hattiesburg, MS             3,752                 9         417            444          3,783               9         420            477          3,267                6         545            447
Honolulu, HI                 619                  1         619            266           586                1         586            339           639                 2         319            421
Houston, TX
                            4,314               11          392            437          5,074             12          423            521          5,262              11          478            564
(Bissonnett)
Houston, TX
                            3,300                 7         471            439          3,690               7         527            489          4,184                9         465            477
(Downtown)
Huntington, WV              3,681                 7         526            367          4,103               7         586            403          4,228                7         604            389
Indianapolis, IN            5,534               13          426            483          5,131             13          395            546          4,996              12          416            714
Jackson, MS                 3,480               10          348            619          3,579               8         447            581          3,708                7         530            641
Jacksonville, FL            4,993               13          384            562          5,813             13          447            564          5,922              14          423            557
Jericho, NY                 4,630                 8         579            368          4,556               8         570            402          3,548                8         444            458
Johnstown, PA               3,185                 8         398            354          3,590               8         449            422          3,394                7         485            408
                   3
Kansas City, KS             3,288               11          299            485          4,224             13          325            536          4,305              13          331            637
Kingsport, TN               4,247                 7         607            285          5,019               8         627            331          4,869                8         609            358


       3
            The Kansas City, Kansas Hearing Office is now located in Kansas City, Missouri.




       Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                                                                                  C-2
                                     Fiscal Year 2005                                            Fiscal Year 2006                                          Fiscal Year 2007




                      Dispositions




                                                     Dispositions




                                                                                  Dispositions




                                                                                                               Dispositions




                                                                                                                                            Dispositions




                                                                                                                                                                          Dispositions
                                                                    Time (Days)




                                                                                                                              Time (Days)




                                                                                                                                                                                         Time (Days)
                                                                    Processing




                                                                                                                              Processing




                                                                                                                                                                                         Processing
                       Number of



                                         Number of




                                                                                   Number of



                                                                                                   Number of




                                                                                                                                             Number of



                                                                                                                                                              Number of
                                                       per ALJ




                                                                                                                 per ALJ




                                                                                                                                                                            per ALJ
                                           ALJs




                                                                                                     ALJs




                                                                                                                                                                ALJs
  Hearing Office




Knoxville, TN        3,599                10          360            424          4,458               9         495            465          4,412                9         490            499
Lansing, MI          2,720                  7         389            548          2,995               7         428            626          3,180                7         454            696
Las Vegas, NV        1,473                  3         491            423          1,482               3         494            514          1,458                3         486            491
Lexington, KY        4,333                10          433            393          4,427             10          443            439          4,571              10          457            464
Little Rock, AR      6,294                14          450            448          6,781             12          565            464          6,692              12          558            486
Long Beach, CA       2,452                  6         409            399          3,004               6         501            424          2,443                5         489            378
Los Angeles, CA
                     2,266                  7         324            376          3,220               6         537            456          2,725                6         454            426
(Downtown)
Los Angeles, CA
                     3,401                  9         378            396          3,900               9         433            459          3,895                9         433            498
(West)
Louisville, KY       3,741                  7         534            340          3,943               7         563            386          3,940                8         493            397
Macon, GA            3,872                  7         553            476          3,583               6         597            442          3,906                8         488            451
Madison, WI            838                  2         419            477           945                2         473            547          1,014                2         507            610
Manchester, NH       2,605                  7         372            403          3,130               6         522            416          2,886                6         481            388
Mayaguez, PR         1,210                  2         605            553           730                3         243            653           990                 1         990            686
McAlester, OK        1,008                  3         336            333          1,584               4         396            496          1,021                3         340            465
Memphis, TN          5,185                10          519            373          5,041               9         560            410          4,509              10          451            444
Metairie, LA         3,844                  7         549            423          1,022               4         256            525          2,469                2        1,235           554
Miami, FL            2,502                10          250            667          2,732             11          248            773          3,052              11          277            741
Middlesboro, KY      2,301                  5         460            373          2,624               5         525            338          2,411                4         603            291
Milwaukee, WI        4,373                14          312            528          5,689             14          406            594          5,805              13          447            601
Minneapolis, MN      5,054                11          459            460          5,586             12          466            506          5,767              11          524            531
Mobile, AL           4,814                13          370            410          5,955             13          458            475          5,857              11          532            478
Montgomery, AL       4,362                  8         545            405          4,140               8         518            451          3,871                7         553            527
Morgantown, WV       3,395                  6         566            314          3,107               6         518            320          3,071                5         614            357
Nashville, TN        5,141                10          514            544          4,207               9         467            495          4,389                9         488            524
New Haven, CT        1,670                  6         278            476          2,237               6         373            501          2,130                6         355            432
New Orleans, LA      3,093                  9         344            348          2,750               6         458            506          3,380                5         676            514
New York, NY         5,510                12          459            497          7,145             12          595            420          6,383              11          580            395
Newark, NJ           4,379                10          438            415          5,065             12          422            459          4,668              10          467            492
Norfolk, VA          2,810                  6         468            352          3,331               6         555            409          2,890                6         482            358
Oak Brook, IL        2,243                  9         249            539          3,616             10          362            547          3,974                9         442            609
Oak Park, MI         5,435                11          494            558          5,319             10          532            606          5,013              10          501            655
Oakland, CA          2,344                  8         293            438          2,600               8         325            512          2,681                8         335            492
Oklahoma City, OK    4,329                11          394            449          4,296             13          330            482          5,188              12          432            443
Omaha, NE            2,241                  5         448            377          2,551               5         510            456          2,555                5         511            536
Orange, CA           2,507                  8         313            410          2,434               5         487            434          2,200                5         440            438
Orland Park, IL      3,058                10          306            362          4,511               8         564            405          4,238                7         605            542
Orlando, FL          7,026                16          439            479          7,322             14          523            450          6,633              12          553            423




      Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                                                                             C-3
                                        Fiscal Year 2005                                            Fiscal Year 2006                                          Fiscal Year 2007




                         Dispositions




                                                        Dispositions




                                                                                     Dispositions




                                                                                                                  Dispositions




                                                                                                                                               Dispositions




                                                                                                                                                                             Dispositions
                                                                       Time (Days)




                                                                                                                                 Time (Days)




                                                                                                                                                                                            Time (Days)
                                                                       Processing




                                                                                                                                 Processing




                                                                                                                                                                                            Processing
                          Number of



                                            Number of




                                                                                      Number of



                                                                                                      Number of




                                                                                                                                                Number of



                                                                                                                                                                 Number of
                                                          per ALJ




                                                                                                                    per ALJ




                                                                                                                                                                               per ALJ
                                              ALJs




                                                                                                        ALJs




                                                                                                                                                                   ALJs
   Hearing Office




Paducah, KY             2,275                  6         379            325          2,887               6         481            403          2,678                5         536            430
Pasadena, CA            1,858                  8         232            433          2,198               8         275            515          2,266                8         283            548
Peoria, IL              2,973                  8         372            529          2,934               9         326            503          3,244                8         406            603
Philadelphia, PA        3,458                  9         384            402          3,974               9         442            437          3,488                8         436            408
Philadelphia-E, PA      4,704                  9         523            351          4,697               9         522            458          4,292                9         477            481
Phoenix, AZ             2,659                  8         332            454          3,617               9         402            510          4,141              10          414            492
Pittsburgh, PA          5,667                14          405            434          6,441             14          460            540          7,236              14          517            557
Ponce, PR                 864                  1         864            487          1,058               2         529            535           940                 2         470            500
Portland, ME            2,303                  6         384            352          2,501               8         313            429          2,493                6         416            409
Portland, OR            3,515                  9         391            501          3,882             10          388            527          3,791              10          379            633
Providence, RI          2,693                  6         449            437          2,965               6         494            423          2,889                7         413            419
Queens, NY              2,513                  8         314            662          2,823               7         403            681          3,093                6         516            632
Raleigh, NC             5,540                11          504            559          5,336             12          445            516          5,792              13          446            498
Richmond, VA            2,500                  6         417            390          2,094               5         419            445          1,729                4         432            427
                   4
Regional Offices           10                  1                                       20                1                                      133                 1
Roanoke, VA             3,396                  9         377            442          4,224               9         469            441          3,430                8         429            375
Sacramento, CA          5,749                13          442            373          5,763             12          480            472          4,833              10          483            489
Salt Lake City, UT      3,264                  7         466            424          3,542               7         506            434          3,367                8         421            447
San Antonio, TX         6,179                18          343            497          7,110             18          395            527          6,916              17          407            537
San Bernardino, CA      3,085                  9         343            363          3,849               8         481            468          3,544                8         443            475
San Diego, CA           3,587                10          359            384          4,378             10          438            452          3,096                9         344            522
San Francisco, CA       2,053                  6         342            429          2,639               7         377            547          2,832                7         405            611
San Jose, CA            2,803                  6         467            327          2,517               5         503            395          1,977                4         494            509
San Juan, PR            4,291                11          390            575          4,785             10          479            630          5,000                9         556            618
San Rafael, CA          1,382                  5         276            361          1,807               5         361            508          1,875                6         313            641
Santa Barbara, CA       1,177                  3         392            455          1,242               3         414            459          1,086                3         362            477
Savannah, GA            3,023                  6         504            461          4,242               8         530            556          4,406                8         551            567
Seattle, WA             6,466                15          431            586          7,131             16          446            565          6,538              15          436            584
Shreveport, LA          3,474                  8         434            396          3,565               7         509            425          3,355                6         559            423
Spokane, WA             3,086                  7         441            460          3,495               7         499            499          3,755                7         536            525
Springfield, MA         1,996                  7         285            345          3,190               7         456            326          2,757                6         460            354
Springfield, MO         2,519                  6         420            399          2,528               6         421            428          2,203                6         367            534
St. Louis, MO           4,904                  9         545            386          4,759               9         529            439          5,247                9         583            514
Stockton, CA            2,660                  6         443            389          2,795               6         466            416          3,264                6         544            460
Syracuse, NY            3,665                11          333            394          3,836             10          384            374          3,965              11          360            488


       4
         Staff and ALJs, including Regional Chief ALJs, in the Office of Disability Adjudication and Review
       Regional Offices will process cases to assist hearing offices in the region when necessary. Since these
       figures include various Regional Offices, Dispositions per ALJ and Processing Times were not calculated.




       Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                                                                               C-4
                                      Fiscal Year 2005                                             Fiscal Year 2006                                           Fiscal Year 2007




                       Dispositions




                                                      Dispositions




                                                                                    Dispositions




                                                                                                                 Dispositions




                                                                                                                                               Dispositions




                                                                                                                                                                             Dispositions
                                                                     Time (Days)




                                                                                                                                Time (Days)




                                                                                                                                                                                            Time (Days)
                                                                     Processing




                                                                                                                                Processing




                                                                                                                                                                                            Processing
                        Number of



                                          Number of




                                                                                     Number of



                                                                                                     Number of




                                                                                                                                                Number of



                                                                                                                                                                 Number of
                                                        per ALJ




                                                                                                                   per ALJ




                                                                                                                                                                               per ALJ
                                            ALJs




                                                                                                       ALJs




                                                                                                                                                                   ALJs
  Hearing Office




Tampa, FL              7,546               18          419            522           7,558             16          472            577           7,717              15          514            633
Tucson, AZ             2,569                 5         514            362           3,154               6         526            429           2,862                5         572            430
Tulsa, OK              4,520                 9         502            353           4,538               8         567            462           4,101                7         586            456
Tupelo, MS             3,287                 7         470            456           3,069               7         438            476           3,568                7         510            409
Voorhees, NJ           3,257                 7         465            445           3,352               7         479            417           2,975                6         496            468
Washington, D.C.       3,044                 7         435            401           3,517               7         502            458           2,798                6         466            417
West Des Moines, IA    2,970                 7         424            487           3,320               7         474            457           2,570                6         428            537
White Plains, NY       2,901                 8         363            490           3,118               7         445            421           3,008                6         501            412
Wichita, KS            2,163                 4         541            381           2,079               5         416            437           3,060                5         612            506
Wilkes-Barre, PA       3,583               10          358            366           4,966             10          497            463           4,594                8         574            434
National              519,359             1,233        421            443          558,978           1,217        459            483          547,951            1,155        474            512




      Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                                                                                C-5
                                                                                                                                                                                                                                                                          Appendix D

   Factors That Impact Productivity
   Our interviews with administrative law judges (ALJ) and hearing office staff disclosed
   factors that may impact ALJ productivity. Table 1 below shows these factors and the
   number of the 29 lower producing ALJs we interviewed who may have been impacted
   by each factor. 1 Table 2 on page D-3 shows these factors and the number of the
   31 higher producing ALJs we interviewed who may have been impacted by each factor.

                                                 Table 1
                   Factors That May Have Impacted Productivity of Lower Producing ALJs
                                               Interviewed
                                                                                                                                                Individual ALJ Preferences                                                                                                        Agency Processes
                                                                                                                                                 Hearings Before Work Up
                   Located at Hearing Office




                                                                                                                                                                                                                                              Substantial Edits to Over
                                               Hearing Office Regularly




                                                                                                                                                                                                                                                                          Medical Experts in Over
                                                                                                 More Than One Hour to




                                                                                                                                                                                                                                              50 Percent of Decisions
                                                                                                                         Requested Fewer Than
                                                                                                                         10 Hearings Per Week




                                                                                                                                                                                                  Spent More Than One
ALJs Interviewed
Lower Producing




                                                                          Favorable Rate Below




                                                                                                                                                                           Hearings Lasted More
                   with Staff Ratio Below



                                               Unable to Fill Hearing




                                                                                                                                                                                                                                                                                                    Over Half of Hearings
                                                                                                                                                                                                                                                                                                    Vocational Experts in
                                                                                                 Review Case Before




                                                                                                                                                                                                                        Did Not Issue Bench




                                                                                                                                                                                                                                                                                                                            Hearings Postponed
                                                                                                                                                                                                  Hour on Case After




                                                                                                                                                                                                                                                                                                                            25 Percent or More
                                                                                                                                                 Did Not Schedule
                   National Average




                                                                          National Average




                                                                                                                                                                                                                                                                          Half of Hearings
                                                                                                                                                                           Than One Hour




                                                                                                                                                                                                                        Decisions
                                                                                                                                                                                                  Hearing 2
                                                                                                 Hearing
                                               Docket




    1                                                                                                   X                     X                        X                        X                                            X
    2                                                                          X                        X                     X                        X                                                X                    X                      X                                                                           X
    3                      X                                                   X                        X                                              X                        X                                            X                                                                                                  X
    4                      X                                                   X                        X                     X                        X                        X                                            X                      X                                                    X
    5                      X                                                   X                        X                     X                        X                        X                       X                    X                                                                           X                      X
    6                      X                                                   X                                              X                        X                        X                                                                                               X                        X
    7                      X                                                                                                                           X                        X                       X                    X                                                  X                        X                      X
    8                      X                                                                                                                           X                        X                                                                   X                           X                        X                      X
    9                      X                           X                                                                      X                        X                        X                                            X                                                                           X
  10                       X                                                   X                        X                                              X                        X                                            X                      X                                                    X                      X
  11                       X                           X                       X                        X                                                                                                                    X                                                                           X
  12                       X                                                                            X                                              X                        X                       X                    X                                                                           X                      X
  13                       X                           X                       X                        X                                              X                        X                       X                    X                                                  X                        X                      X
  14                                                                           X                        X                     X                        X                                                X                    X                                                                                                  X

   1
    In addition to the factors listed in the tables, we also identified that internal factors, Disability
   Determination Services case development, and the use of rocket dockets may impact productivity.
   However, we did not identify how these factors may have impacted the productivity and processing times
   of the individual ALJs we interviewed.
   2
     All ALJs we interviewed did not provide a specific amount of time they spent on cases after hearings.
   Therefore, additional ALJs may have spent more than one hour on cases after hearings than reported in
   these tables.


   Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                                                                                                                                                                                                                                           D-1
                                                                                                                                                        Lower Producing




                                                                          29
                                                                               28
                                                                                    27
                                                                                         26
                                                                                              25
                                                                                                   24
                                                                                                        23
                                                                                                             22
                                                                                                                  21
                                                                                                                       20
                                                                                                                            19
                                                                                                                                 18
                                                                                                                                      17
                                                                                                                                           16
                                                                                                                                                15
                                                                                                                                                        ALJs Interviewed

                                                                                                                                                     Located at Hearing Office




                                                                               X
                                                                                         X
                                                                                              X
                                                                                                   X
                                                                                                        X
                                                                                                             X
                                                                                                                  X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                X
                                                                                                                                                     with Staff Ratio Below
                                                                                                                                                     National Average

                                                                                                                                                     Hearing Office Regularly




                                                                          X
                                                                               X
                                                                                                        X
                                                                                                             X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                X
                                                                                                                                                     Unable to Fill Hearing
                                                                                                                                                     Docket
                                                                                                                                                     Favorable Rate Below




                                                                               X
                                                                                    X
                                                                                              X
                                                                                                   X
                                                                                                        X
                                                                                                             X
                                                                                                                  X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                     National Average
                                                                                                                                                     More Than One Hour to




                                                                               X
                                                                                    X
                                                                                         X
                                                                                              X
                                                                                                   X
                                                                                                             X
                                                                                                                  X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                     Review Case Before
                                                                                                                                                     Hearing
                                                                                                                                                     Requested Fewer Than




                                                                                                   X
                                                                                                        X
                                                                                                                       X
                                                                                                                                                X
                                                                                                                                                     10 Hearings Per Week

                                                                                                                                                     Did Not Schedule




                                                                          X
                                                                               X
                                                                                              X
                                                                                                   X
                                                                                                             X
                                                                                                                  X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                                X



                                                                                                                                                     Hearings Before Work Up

                                                                                                                                                     Hearings Lasted More




                                                                                         X
                                                                                              X
                                                                                                   X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                      X
                                                                                                                                                                                                                                            Table 1




                                                                                                                                                     Than One Hour
                                                                                                                                                                                                                                          Interviewed




                                                                                                                                                     Spent More Than One
                                                                                                                  X
                                                                                                                       X
                                                                                                                            X



                                                                                                                                                     Hour on Case After
                                                                                                                                                     Hearing 2
                                                                                                                                                                                 Individual ALJ Preferences




                                                                                                                                                     Did Not Issue Bench




                                                                               X
                                                                                    X
                                                                                         X
                                                                                              X
                                                                                                   X
                                                                                                             X
                                                                                                                  X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                X




                                                                                                                                                     Decisions

                                                                                                                                                     Substantial Edits to Over
                                                                                    X
                                                                                         X
                                                                                              X
                                                                                                             X
                                                                                                                  X
                                                                                                                            X
                                                                                                                                      X
                                                                                                                                           X




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                                                                                                     50 Percent of Decisions

                                                                                                                                                     Medical Experts in Over
                                                                                                                                      X
                                                                                                                                           X




                                                                                                                                                     Half of Hearings

                                                                                                                                                     Vocational Experts in
                                                                          X
                                                                               X
                                                                                              X
                                                                                                   X
                                                                                                             X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                X




                                                                                                                                                     Over Half of Hearings
                                                                                                                                                                                                              Factors That May Have Impacted Productivity of Lower Producing ALJs




                                                                                                                                                     25 Percent or More
                                                                               X
                                                                                         X
                                                                                                        X
                                                                                                                  X
                                                                                                                       X
                                                                                                                                      X
                                                                                                                                                                                 Agency Processes




                                                                                                                                                     Hearings Postponed




D-2
                                                                                                                                                                                                                               Higher Producing




                                                                                                                                                                                        9
                                                                                                                                                                                            8
                                                                                                                                                                                                7
                                                                                                                                                                                                    6
                                                                                                                                                                                                        5
                                                                                                                                                                                                            4
                                                                                                                                                                                                                3
                                                                                                                                                                                                                    2
                                                                                                                                                                                                                        1




                                                                          31
                                                                               30
                                                                                    29
                                                                                         28
                                                                                              27
                                                                                                   26
                                                                                                        25
                                                                                                             24
                                                                                                                  23
                                                                                                                       22
                                                                                                                            21
                                                                                                                                 20
                                                                                                                                      19
                                                                                                                                           18
                                                                                                                                                17
                                                                                                                                                     16
                                                                                                                                                          15
                                                                                                                                                               14
                                                                                                                                                                    13
                                                                                                                                                                         12
                                                                                                                                                                              11
                                                                                                                                                                                   10
                                                                                                                                                                                                                               ALJs Interviewed

                                                                                                                                                                                                                            Located at Hearing Office




                                                                               X
                                                                                              X
                                                                                                   X
                                                                                                                       X
                                                                                                                            X
                                                                                                                                      X
                                                                                                                                           X
                                                                                                                                                X
                                                                                                                                                                    X
                                                                                                                                                                              X
                                                                                                                                                                                        X
                                                                                                                                                                                            X
                                                                                                                                                                                                X
                                                                                                                                                                                                                    X
                                                                                                                                                                                                                        X
                                                                                                                                                                                                                            with Staff Ratio Below
                                                                                                                                                                                                                            National Average

                                                                                                                                                                                                                            Hearing Office Regularly




                                                                          X
                                                                                                        X
                                                                                                                       X
                                                                                                                                           X
                                                                                                                                                     X
                                                                                                                                                                                                            X
                                                                                                                                                                                                                    X
                                                                                                                                                                                                                            Unable to Fill Hearing
                                                                                                                                                                                                                            Docket
                                                                                                                                                                                                                            Favorable Rate Below




                                                                               X
                                                                                                   X
                                                                                                             X
                                                                                                                            X
                                                                                                                                 X
                                                                                                                                      X
                                                                                                                                                          X
                                                                                                                                                                                        X
                                                                                                                                                                                                            X
                                                                                                                                                                                                                        X




                                                                          X
                                                                                                                                                                                                                            National Average
                                                                                                                                                                                                                            More Than One Hour to




                                                                                              X
                                                                                                                                                                                                                            Review Case Before
                                                                                                                                                                                                                            Hearing
                                                                                                                                                                                                                            Requested Fewer Than
                                                                                                                                                                                                                            10 Hearings Per Week

                                                                                                                                                                                                                            Did Not Schedule




                                                                                         X
                                                                                                   X
                                                                                                                       X
                                                                                                                                 X
                                                                                                                                                          X
                                                                                                                                                                              X
                                                                                                                                                                                        X
                                                                                                                                                                                                X
                                                                                                                                                                                                                        X


                                                                                                                                                                                                                            Hearings Before Work Up

                                                                                                                                                                                                                            Hearings Lasted More
                                                                                                                                                                                                                                                                                                                   Table 2




                                                                                                                                                                                                                            Than One Hour
                                                                                                                                                                                                                                                                                                                 Interviewed




                                                                                                                                                                                                                            Spent More Than One
                                                                                                                                                                                                                    X




                                                                                                                                                                                                                            Hour on Case After
                                                                                                                                                                                                                            Hearing2
                                                                                                                                                                                                                                                        Individual ALJ Preferences




                                                                                                                                                                                                                            Did Not Issue Bench




                                                                               X
                                                                                              X
                                                                                                        X
                                                                                                                                 X
                                                                                                                                                                    X
                                                                                                                                                                              X
                                                                                                                                                                                   X
                                                                                                                                                                                        X
                                                                                                                                                                                            X
                                                                                                                                                                                                X
                                                                                                                                                                                                            X
                                                                                                                                                                                                                    X




                                                                          X
                                                                                                                                                                                                                            Decisions

                                                                                                                                                                                                                            Substantial Edits to Over




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                                                                                                                                                                            50 Percent of Decisions

                                                                                                                                                                                                                            Medical Experts in Over




                                                                                                             X
                                                                                                                       X
                                                                                                                                                                                                                            Half of Hearings

                                                                                                                                                                                                                            Vocational Experts in




                                                                                                   X
                                                                                                        X
                                                                                                             X
                                                                                                                       X
                                                                                                                                                          X
                                                                                                                                                                    X
                                                                                                                                                                                        X
                                                                                                                                                                                                            X
                                                                                                                                                                                                                        X




                                                                          X
                                                                                                                                                                                                                            Over Half of Hearings
                                                                                                                                                                                                                                                                                     Factors That May Have Impacted Productivity of Higher Producing ALJs

                                                                                                                                                                                                                                                        Agency Processes




                                                                                                                                                                                                                            25 Percent or More




                                                                               X
                                                                                              X
                                                                                                   X
                                                                                                             X
                                                                                                                            X
                                                                                                                                                                                   X
                                                                                                                                                                                                        X
                                                                                                                                                                                                            X
                                                                                                                                                                                                                        X




                                                                          X
                                                                                                                                                                                                                            Hearings Postponed




D-3
                                                                                          Appendix E

Administrative Law Judge Disciplinary Actions1
              ALJ Disciplinary Actions Fiscal Years 2005 Through June 2008
                            Reason for Action               Action Taken or Proposed
           1    Intoxication at work.                     Suspension (7 days)
           2    Misconduct toward a fellow employee. Reprimand
                Misuse of a handicapped parking
           3                                              Suspension (5 days)
                placard at work.
                Failure to follow management
           4    directives and multiple time and          Reprimand
                attendance violations.
                Inappropriate use of Government
           5                                              Suspension (1 day)
                computer.
           6    Misuse of Government computer.            Suspension (60 days)
           7    Criminal activities in a former position. Termination
                                                          Termination action filed,
                Leave without pay issues over 5-year
           8                                              settled for administrative law
                period.
                                                          judge’s (ALJ) retirement
                Failure to follow management              Suspension (15 days) not
           9
                directives.                               served, ALJ deceased
                Failure to follow management              Suspension (15 days) not
          10
                directives.                               served, pending appeal
                Failure to follow management              Suspension (15 days) not
          11
                directives.                               served, pending appeal
                Insubordination and time and
          12                                              Reprimand
                attendance violations.
                Refusal to cooperate in an Equal
          13                                              Suspension (14 days)
                Employment Opportunity hearing.
                Worked full-time for Social Security
          14    Administration and another agency at Termination
                the same time.
          15    Misconduct toward other employees.        Termination proposed
                Failure to process assigned workload Reprimand issued,
          16 2 timely and multiple time and               Suspension proposed
                attendance violations.                    (14 days)
                Failure to process assigned workload Suspension proposed
          17
                timely and falsified documents.           (30 days)


1
    Highlighted disciplinary actions are those that involve performance-related issues.
2
    This ALJ also received a reprimand (see action number 4).


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                           E-1
            ALJ Disciplinary Actions Fiscal Years 2005 Through June 2008
                          Reason for Action              Action Taken or Proposed
              Failure to follow management             Suspension proposed
       18
              directives.                              (7 days)
       19     Arrested for criminal activities.        Termination proposed
       20     Arrested for criminal activities.        Termination proposed
              Failure to follow management             Suspension proposed
       21
              directives.                              (5 days)
              Inappropriate distribution of Agency
       22                                              Case under development
              information.
              Misused official title and inappropriate
       23                                              Termination proposed
              use of Government computer.
              Inappropriate political activity and use
       24                                              Suspension (10 days)
              of Government computer.
              Inappropriate use of Government
       25                                              Suspension (5 days)
              computer.
              Inappropriate use of Government
       26                                              Suspension (1 day)
              computer.
              Failure to process assigned workload
       27                                              Reprimand
              timely.
       28     Misconduct toward other employees.       Reprimand
       29     Misconduct during hearings.              Reprimand
       30     Time and attendance violations.          Reprimand
              Inappropriate distribution of Agency
       31                                              Reprimand
              information.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)             E-2
                                                                                    Appendix F

Location of New Administrative Law Judges
            Location 1         Number of ALJs                      Location         Number of ALJs
         Albany, NY                     2                     Cincinnati, OH              4
         Mayaguez, PR                   1                     Cleveland, OH               6
         New York, NY                   3                     Columbus, OH                2
         Newark, NJ                     2                     Dayton, OH                  1
         Ponce, PR                      1                     Evansville, IN              1
         Queens, NY                     2                     Flint, MI                   1
         San Juan, PR                   3                     Grand Rapids, MI            2
         Syracuse, NY                   3                     Indianapolis, IN            1
         Region 2 Total                 17                    Milwaukee, WI               4
         Charleston, WV                 1                     Oak Park, MI                2
         Huntington, WV                 3                     Peoria, IL                  2
         Johnstown, PA                  1                     Region 5 Total             26
         Morgantown, WV                 2                     Alexandria, LA              1
         Seven Fields, PA               3                     Fort Smith, AR              2
         Wilkes-Barre, PA               4                     Little Rock, AR             1
         Region 3 Total                 14                    Metairie, LA                5
         Atlanta, GA                    5                     New Orleans, LA             3
         Atlanta, GA (North)            1                     Shreveport, LA              3
         Birmingham, AL                 1                     Region 6 Total             15
         Charleston, SC                 4                     Creve Coeur, MO             1
         Chattanooga, TN                1                     Springfield, MO             1
         Columbia, SC                   1                     West Des Moines, IA         4
         Fort Lauderdale, FL            2                     Wichita, KS                 2
         Greenville, SC                 3                     Region 7 Total              8
         Hattiesburg, MS                4                     Billings, MT                1
         Jackson, MS                    3                     Fargo, ND                   1
         Knoxville, TN                  2                     Region 8 Total              2
         Louisville, KY                 1                     Downey, CA                  1
         Macon, GA                      2                     Fresno, CA                  2
         Mobile, AL                     4                     Sacramento, CA              2
         Montgomery, AL                 1                     San Bernardino, CA          1
         Nashville, TN                  2                     San Jose, CA                1
         Orlando, FL                    2                     Region 9 Total              7
         Paducah, KY                    1                     Seattle, WA                 1
         Raleigh, NC                    1                     Spokane, WA                 1
         Tupelo, MS                     1                     Region 10 Total             2
         Region 4 Total                 42                    Grand Total                133



1
    None of the 133 new administrative law judges are to be placed in Region 1.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)
                                                                                    Appendix G

Fiscal Year 2007 Daily Receipts and Pending
Cases per Administrative Law Judge1
                                                              Daily                            Pending
                                 Number         Daily                         Pending
                                                             Receipts                           Cases
     Hearing Office              of New        Receipts                      Cases Per
                                                             per ALJ                           per ALJ
                                  ALJs         Per ALJ                          ALJ
                                                              Rank 2                            Rank 3
Boston, MA                           0            1.17           135              249               3
Hartford, CT                         0            2.53           60               485              42
Manchester, NH                       0            1.05           139              165               1
New Haven, CT                        0            0.79           140              238               2
Portland, ME                         0            1.90           110              317              11
Providence, RI                       0            2.15           87               377              22
Springfield, MA                      0            1.34           129              255               4
Region 1 Total                       0            1.45            -               284               -
Albany, NY                           2            4.79            1              1,671             140
Bronx, NY                            0            3.18           19               991              114
Brooklyn, NY                         0            1.92           108              432              33
Buffalo, NY                          0            2.57           54              1,129             122
Jericho, NY                          0            3.00           26               879              105
Mayaguez, PR                         1            2.78           39              1,322             132
New York, NY                         3            1.86           112              390              24
Newark, NJ                           2            2.04           97               593              62
Ponce, PR                            1            3.43           10               715              89
Queens, NY                           2            1.79           113              438              34
San Juan, PR                         3            1.56           120              409              31
Syracuse, NY                         3            3.38           12              1,186             126
Voorhees, NJ                         0            2.00           102              653              74
White Plains, NY                     0            1.61           119              400              28
Region 2 Total                       17           2.35            -               717               -

1
 Highlighted hearing offices are those with both daily receipts per administrative law judge (ALJ) and
pending cases per ALJ above the national averages of 701.83 and 2.32, respectively, in Fiscal
Year (FY) 2007 and also received new ALJs in FY 2008.
2
  The Office of Disability Adjudication and Review (ODAR) ranked hearing offices 1 through 140 for
receipts per ALJ per day in FY 2007. The hearing office with a rank of 1 had the most daily receipts per
ALJ while the hearing offices ranked 140 had the fewest daily receipts per ALJ. There were 141 hearing
offices; however, the New Haven, Connecticut and San Francisco, California offices had the same
number of daily receipts per ALJ so these offices were both ranked 140.
3
  ODAR ranked hearing offices 1 through 141 for cases pending per ALJ in FY 2007. The hearing office
ranked 1 had the fewest cases pending per ALJ while the hearing office ranked 141 had the most cases
pending per ALJ.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                  G-1
                                                                Daily                           Pending
                                   Number         Daily                         Pending
                                                               Receipts                          Cases
        Hearing Office             of New        Receipts                      Cases Per
                                                               per ALJ                          per ALJ
                                    ALJs         Per ALJ                          ALJ
                                                                Rank 2                           Rank 3
Baltimore, MD                          0            2.39           72              651            72
Charleston, WV                         1            2.35           75              363            19
Charlottesville, VA                    0            2.14           89              351            17
Dover, DE                              0            2.78           38              493            44
Elkins Park, PA                        0            2.33           78              596            63
Harrisburg, PA                         0            3.80            6              610            67
Huntington, WV                         3            2.67           47              575            59
Johnstown, PA                          1            2.33           78              568            58
Morgantown, WV                         2            3.37           14              662            78
Norfolk, VA                            0            1.29           131             338            15
Philadelphia, PA                       0            1.69           117             478            41
Philadelphia-E, PA                     0            1.79           113             410            32
Pittsburgh, PA                         0            2.74           41              686            83
Richmond, VA                           0            2.19           83              441            36
Roanoke, VA                            0            2.04           97              400            28
Seven Fields, PA 4                     3              -             -               -              -
Washington, D.C.                       0            2.10           92              439            35
Wilkes-Barre, PA                       4            2.57           54              657            76
Region 3 Total                         14           2.37            -              525             -
Atlanta, GA                            5            2.12           91              962            111
Atlanta, GA (North)                    1            3.22           17             1,469           136
Birmingham, AL                         1            2.77           40              955            109
Charleston, SC                         4            2.44           68              747            94
Charlotte, NC                          0            2.72           42              922            106
Chattanooga, TN                        1            2.29           81              614            68
Columbia, SC                           1            2.35           75              685            103
Florence, AL                           0            2.53           60              739            92
Fort Lauderdale, FL                    2            1.55           121             308             9
Greensboro, NC                         0            2.91           31             1,226           129
Greenville, SC                         3            2.68           46             1,742           141
Hattiesburg, MS                        4            2.62           49              679            81
Jackson, MS                            3            3.41           11             1,269           130
Jacksonville, FL                       0            1.92           108             577            60
Kingsport, TN                          0            1.89           111             363            20
Knoxville, TN                          2            2.14           89              742            93
Lexington, KY                          0            2.10           92              554            53
Louisville, KY                         1            3.38           12              748            95
Macon, GA                              2            2.01           101             498            45
Memphis, TN                            0            2.34           77              688            84
Miami, FL                              0            1.45           126             502            46
Middlesboro, KY                        0            2.85           36              487            43

4
    The Seven Fields Hearing Office is a new office that did not process cases until FY 2008.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                                 G-2
                                                      Daily                    Pending
                             Number       Daily                     Pending
                                                     Receipts                   Cases
     Hearing Office          of New      Receipts                  Cases Per
                                                     per ALJ                   per ALJ
                              ALJs       Per ALJ                      ALJ
                                                      Rank 2                    Rank 3
Mobile, AL                      4           2.56        56             773       98
Montgomery, AL                  1           3.29        16             982       113
Nashville, TN                   2           2.58        53             749       96
Orlando, FL                     2           2.51        63             622       69
Paducah, KY                     1           2.56        56             563       57
Raleigh, NC                     1           2.93        27             951       108
Savannah, GA                    0           1.94        105            652       73
Tampa, FL                       0           2.41        70            1,022      118
Tupelo, MS                      1           2.55        58             520       50
Region 4 Total                  42          2.44         -             789        -
Chicago, IL                     0           1.79        113            605       66
Cincinnati, OH                  4           2.87        33            1,002      117
Cleveland, OH                   6           3.93         4            1,630      139
Columbus, OH                    2           2.92        28            1,158      125
Dayton, OH                      1           3.16        20            1,126      121
Detroit, MI                     0           3.15        22            1,048      119
Evanston, IL                    0           1.40        127            342       16
Evansville, IN                  1           3.52         9            1,306      131
Flint, MI                       1           3.92         5            1,454      135
Fort Wayne, IN                  0           3.12        23            1,134      124
Grand Rapids, MI                2           4.19         2            1,399      133
Indianapolis, IN                1           2.49        65            1,133      123
Lansing, MI                     0           2.82        37            1,192      127
Madison, WI                     0           2.19        83             969       112
Milwaukee, WI                   4           2.65        48            1,000      116
Minneapolis, MN                 0           2.62        49             819       101
Oak Brook, IL                   0           1.07        138            546       52
Oak Park, MI                    2           3.60         8            1,607      138
Orland Park, IL                 0           2.51        63             995       115
Peoria, IL                      2           2.05        96             803       100
Region 5 Total                  26          2.74         -            1,042       -
Albuquerque, NM                 0           2.54        59             669       80
Alexandria, LA                  1           2.69        45             665       79
Dallas, TX (Downtown)           0           2.31        80             599       64
Dallas, TX (North)              0           1.70        116            460       39
Fort Smith, AR                  2           3.11        24             718       90
Fort Worth, TX                  0           2.03        100            507       48
Houston, TX (Downtown)          0           1.36        128            336       14
Houston, TX (Bissonnett)        0           1.99        103            655       75
Little Rock, AR                 1           2.92        28             726       91
McAlester, OK                   0           2.86        34             764       97
Metairie, LA                    5           4.05         3            1,408      134
New Orleans, LA                 3           2.25        82             625       70



Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                G-3
                                                               Daily                     Pending
                                  Number         Daily                        Pending
                                                              Receipts                    Cases
        Hearing Office            of New        Receipts                     Cases Per
                                                              per ALJ                    per ALJ
                                   ALJs         Per ALJ                         ALJ
                                                               Rank 2                     Rank 3
Oklahoma City, OK                     0            1.53          122              381      23
San Antonio, TX                       0            1.53          122              471      40
Shreveport, LA                        3            3.20          18               603      65
Tulsa, OK                             0            2.60          52               661      77
Region 6 Total                        15           2.19           -               577       -
Creve Coeur, MO                       1            2.89          32               865      104
Kansas City, KS 5                     0            2.36          73              1,054     120
Omaha, NE                             0            2.62          49               958      110
Springfield, MO                       1            3.74           7              1,514     137
St. Louis, MO                         0            2.49          65               679      82
West Des Moines, IA                   4            3.16          20              1,206     128
Wichita, KS                           2            3.11          24               940      107
Region 7 Total                        8            2.79           -               974       -
Billings, MT                          1            2.52          62               705      88
Colorado Springs, CO                  0            2.92          28               700      87
Denver, CO                            0            2.70          44               697      85
Fargo, ND                             1            2.36          73               699      86
Salt Lake City, UT                    0            1.93          106              364      21
Region 8 Total                        2            2.49           -               610       -
Downey, CA                            1            2.44          68               558      54
Fresno, CA                            2            2.19          83               503      47
Honolulu, HI                          0            3.32          15               581      61
Las Vegas, NV                         0            2.18          83               409      30
Long Beach, CA                        0            1.93          106              302       8
Los Angeles, CA (Downtown)            0            1.99          103              398      27
Los Angeles, CA (West)                0            1.19          134              327      12
Oakland, CA                           0            1.24          133              309      10
Orange, CA                            0            2.10          92               454      38
Pasadena, CA                          0            1.25          132              294       7
Phoenix, AZ                           0            1.31          130              453      37
Sacramento, CA                        2            2.15          87               533      51
San Bernardino, CA                    1            2.86          34               561      56
San Diego, CA                         0            1.09          137              335      13
San Francisco, CA                     0            0.79          140              280       5
San Jose, CA                          1            2.71          43               559      55
San Rafael, CA                        0            1.11          136              396      26
Santa Barbara, CA                     0            1.46          125              359      18
Stockton, CA                          0            1.65          118              393      25
Tucson, AZ                            0            1.51          124              280       5
Region 9 Total                        7            1.68           -               402       -



5
    The Kansas City, Kansas Hearing Office is now located in Kansas City, Missouri.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                          G-4
                                                      Daily                     Pending
                             Number       Daily                     Pending
                                                     Receipts                    Cases
    Hearing Office           of New      Receipts                  Cases Per
                                                     per ALJ                    per ALJ
                              ALJs       Per ALJ                      ALJ
                                                      Rank 2                     Rank 3
Eugene, OR                      0           2.09         95               508     49
Portland, OR                    0           2.41         70               820     102
Seattle, WA                     1           2.04         97               649     71
Spokane, WA                     1           2.47         67               776     99
Region 10 Total                 2           2.22          -               691      -
National Total                 133          2.32          -               702      -




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                 G-5
                                                                                   Appendix H

Social Security Administration Initiatives1
    Initiative                     Description                                    Status
                                   Compassionate Allowances
Compassionate         The compassionate allowances                SSA has been developing and
Allowances            initiative seeks to identify cases          expanding the use of automated
                      where the disease or condition is so        screening tools to identify the types
                      consistently devastating that the           of cases that fall under the
                      Social Security Administration (SSA)        compassionate allowances initiative.
                      can presume the claimant is disabled        SSA is also refining its rules,
                      once a valid diagnosis is confirmed.        regulations, and listing codes to
                      By deciding more cases based on             reflect current advances in medical
                      medical evidence alone, SSA hopes           science.
                      to reduce the number of claims that
                      require further review.
                                       Improve Performance
Reduce Aged           In Fiscal Year (FY) 2007, the Office of     ODAR reduced the backlog of
Cases                 Disability Adjudication and Review          1,000-day-old cases to just over
                      (ODAR) defined aged cases as those          100 cases by the end of FY 2007.
                      that would be 1,000-days-old by the         At the beginning of FY 2008, there
                      end of the FY. ODAR redefined aged          were over 135,000 cases that were
                      cases as those that would be 900-           or would become 900-days-old or
                      days-old by the end of FY 2008.             older by the end of the FY. As of
                      Working down this inventory of aged         April 2008, the number of these
                      cases will improve public service and       aged cases was reduced to less
                      provide decisions to claimants who          than 40,000 cases. ODAR is on
                      have waited long periods of time.           target to eliminate these cases by
                                                                  the end of FY 2008.
Adjudication by       This initiative allows certain attorney     As of April 2008, there have been
Attorney Advisors     advisors to issue fully favorable on-       over 12,000 Senior Attorney
                      the-record (OTR) decisions to               dispositions since the inception of
                      expedite the decisions and conserve         the initiative in November 2007. A
                      administrative law judge (ALJ)              final rule was published in the
                      resources for the more complex              Federal Register in March 2008
                      cases and cases that require a              indicating that “These procedures
                      hearing.                                    will remain in effect for a period not
                                                                  to exceed 2 years…”




1
 SSA prepares semiannual updates to the initiatives in its Plan to Eliminate the Backlog and Prevent Its
Recurrence http://mwww.ba.ssa.gov/appeals/Backlog_Reports/Semiannual_Report_FY08.pdf.


Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                               H-1
   Initiative                   Description                                   Status
                                Increase Adjudicatory Capacity
Streamlined        ALJs have indicated they would           From October 2007 through
Folder Assembly    schedule more cases for hearing if       April 2008, over 21,600 paper cases
                   more cases could be prepared.            were prepared by streamlined folder
                   Under this initiative, paper folders are assembly. In February 2008, ODAR
                   prepared for hearing by simply           extended the use of the voluntary
                   numbering the pages in each section streamlined folder assembly to
                   of the folder. Duplicates are not        electronic folders.
                   purged and evidence is not ordered
                   chronologically. These cases are
                   made available to ALJs who are
                   willing to schedule and hear cases
                   prepared by this method.
Deputy             DCO employees will assist                From June 2007 through September
Commissioner of    designated hearing offices on            2007, DCO employees used over
Operations         overtime with various tasks, which       30,500 hours of overtime on almost
(DCO) Overtime     include folder assembly, associating     295,000 workload activities. From
                   paper mail with the folder, application October 2007 through the beginning
                   and query printing, photocopying,        of May 2008, DCO employees
                   scanning, alphabetizing, mailing         worked over 38,600 additional hours
                   decisions, filing closed files, folder   of overtime on more than 466,000
                   audit or inventory, creating barcodes, hearing office workload activities.
                   and filing ALJ folders.
Remand Cases       Using profiles developed by SSA’s        From October 2007 through
to Disability      Office of Quality Performance (OQP), April 2008, DDSs received more
Determination      unworked paper cases from the            than 28,000 remands. DDSs issued
Services (DDS)     ODAR backlog of cases are screened favorable determinations on more
                   and remanded to DDSs who, using          than 8,000 of these cases and
                   overtime, determine whether a            returned approximately
                   favorable decision can be issued         16,000 cases to ODAR without
                   without a hearing.                       making a decision, for a reversal
                                                            rate of 33 percent.
Implement          Before assignment to an ALJ, cases       ODAR developed three
Medical            profiled by OQP are routed to a          interrogatory templates using OQP
Screening          medical expert to complete a set of      profile scores to determine whether
Process            interrogatories. Cases that can be       impairments meet or equal a listing
                   allowed OTR are routed to a non-ALJ and, if not, the limitations imposed
                   adjudicator in ODAR for review and       by the impairment(s). In
                   decision. Cases that cannot be           March 2008, the Chief ALJ
                   allowed include the medical expert’s     announced the hearing office
                   response in the record and are routed procedures for using the newly
                   to an ALJ for normal processing.         developed interrogatories. ODAR
                                                            anticipates this initiative will result in
                                                            an increase in Attorney Adjudicator
                                                            OTR dispositions.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                          H-2
    Initiative                   Description                                 Status
Open National       The NHC reports directly to the Office     The NHC opened in October 2007.
Hearing Center      of the Chief ALJ (OCALJ). All              Workloads from heavily backlogged
(NHC)               hearings will be held using video          hearing offices are being transferred
                    hearing equipment in each ALJ office.      to this facility. The first 100 cases
                    As a result, there is no conflict in       were received from the Cleveland
                    scheduling hearings due to the             Hearing Office. After an initial
                    unavailability of hearing rooms. Each      period of training, attorneys and
                    ALJ at the NHC will supervise one or       legal assistants began working from
                    more attorneys, thereby eliminating        this location in November 2007. As
                    unnecessary hand-offs of the               of April 2008, there were six ALJs in
                    decision and it is expected that there     the NHC. Approximately 120 new
                    will be increased communication            cases are received monthly from the
                    between the ALJ and the attorney           Cleveland, Atlanta, and Detroit
                    which should lead to an improved           Hearing Offices.
                    decisional outcome.
ALJ Hiring          SSA was precluded from hiring ALJs         During February 2008, ODAR made
                    due to a Merit Systems Protection          144 selections and received
                    Board decision in 1999 that closed         133 acceptances for 64 locations
                    the ALJ register. Other than one           (see Appendix F). The new ALJs
                    exception in 2001, SSA was                 entered on duty in three groups.
                    precluded from hiring ALJs until late      The first group of 43 ALJs entered
                    2003. During the time the register         on duty in April 2008. The next
                    was closed, ODAR lost almost               groups entered on duty in May,
                    200 ALJs through normal attrition. In      June, and July 2008. ODAR has
                    October 2007, a new register for           received authority to hire
                    ALJs was established.                      56 additional ALJs.
Improve ALJ         In October 2007, the Chief ALJ             According to data provided by
Productivity        issued a memo to all ALJs with a           ODAR, 64 percent of ALJs were on
                    request for each ALJ to issue 500 to       track to issue 500 dispositions for
                    700 dispositions per year.                 FY 2008, as of April 2008.
             Increase Efficiency with Automation and Business Processes
Transition to the   In FY 2007, ODAR transitioned from         As of March 2008, ODAR had over
Electronic Folder   processing hearings using paper            550,000 electronic cases,
                    folders to using electronic folders.       comprising 73 percent of the
                                                               pending workload.
ePulling -          This initiative involves the               The pilot began in June 2008 at
Electronic File     development of customized software         ODAR’s Model Process Test
Assembly            that has the potential to identify,        Facility. The pilot is being expanded
                    classify, and sort page level data,        to 5 hearing offices and the NHC.
                    reorganize the images after                Rollout to additional hearing offices
                    classification, and identify duplicates.   is dependent on the performance of
                                                               the software at the pilot locations.
eScheduling         eScheduling is an automated                ODAR is working with SSA’s Office
                    calendaring function that will             of Systems to identify possible
                    incorporate scheduling of experts,         vendors who could provide
                    hearing sites and hearing rooms,           customized software.
                    equipment, and ALJ availability.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                        H-3
    Initiative                    Description                                    Status
Electronic          ERE offers electronic options for             ODAR is currently working with the
Records Express     submitting health and school records          Office of Systems and other SSA
(ERE)               to related disability claims. This            components to establish
                    initiative will expand access to ERE to       authorization and authentication
                    allow outside end-users (claimant             requirements to provide
                    representatives and expert                    representatives access to the
                    witnesses) the ability to view the            electronic folder via a secure
                    electronic folder online and to receive       website. This will be piloted with
                    notices electronically.                       selected representatives beginning
                                                                  in July 2008.
Increase Amount     This initiative aims to expand the            Enhancements in the February 2008
of Data             current functionality and propagation         systems release simplified the
Propagated to       of additional information into ODAR’s         process for generating a barcode.
the Hearing         Case Processing and Management                Enhancements scheduled for July
Office Case         System (CPMS) from other SSA                  2008 will include data propagation
Processing          systems.                                      from the SSA-831 (Disability
System                                                            Determination and Transmittal) into
                                                                  CPMS.
Provide the         The electronic signature will give            The Office of Systems completed
Ability to Sign     ALJs the ability to sign decisions            the first phase of the e-Signature
Decisions           electronically and the ability for the        initiative in February 2008 and
Electronically      ALJs to allow the Hearing Office              ODAR is piloting this new process
                    Chief ALJ to sign on their behalf.            as well as developing training for
                                                                  ALJs. The ability for ALJs to sign
                                                                  cases electronically is expected to
                                                                  be in place in July 2008.
Centralize          This initiative will provide high speed,      A pilot in four hearing offices, which
Printing and        high volume printing for all ODAR             began in February 2008, tested this
Mailing             offices. Documents will be sent               functionality with the Request for
                    electronically from the individual            Hearing Acknowledgement Letter.
                    hearing offices to a print server for         This functionality was expanded to
                    mailing by a contractor.                      include 31 additional hearing offices
                                                                  and 3 more notices in March 2008.
                                                                  During April 2008, over 20,000
                                                                  notices were produced. Plans are
                                                                  to expand in July 2008 to include
                                                                  56 more hearing offices and 6 more
                                                                  notices. Plans are to implement this
                                                                  functionality in all remaining offices
                                                                  by October 2008.
Provide Shared      This initiative will provide the ability to   The systems release in
Access to the       temporarily transfer cases for                February 2008 included the ability to
Electronic Folder   workload assistance among hearing             provide shared jurisdiction allowing
                    offices, allowing full functionality to       temporary transfer of electronic
                    both the original and receiving               cases for pulling and decision
                    hearing office.                               writing assistance.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                            H-4
   Initiative                  Description                                   Status
Enhance Hearing    The hearing office system currently        In FY 2008, new reports were
Office             has an extensive management                developed to track aged cases,
Management         information application. However,          informal remands, Senior Attorney
Information        additional methods are needed to           Adjudicator dispositions, the Medical
                   monitor task times, more closely           Expert Screening Initiative, ALJ
                   monitor workloads, and track the           productivity, and NHC workloads. A
                   progress of backlog reduction              report to assist in tracking the cases
                   initiatives.                               involved in the Service Area
                                                              Realignment is currently being
                                                              developed.
Provide            The goal of this initiative is to expand   FY 2007 funds were used to acquire
Additional Video   the number of video hearings,              158 new video units which are being
Hearing            decrease ALJ travel, and increase          installed in hearing rooms. As of
Equipment          ALJ productivity. Video hearings can       April 2008, 86 of the new units
                   be held in hearing rooms with the use      (54 percent) have been installed
                   of large, flat panel video monitors and    with sites required by the service
                   with desktop video units.                  area alignment initiative being given
                                                              priority.

                                                              ODAR has begun testing desktop
                                                              video units. Test sites include
                                                              ODAR executive offices in Falls
                                                              Church and Baltimore, the NHC,
                                                              four hearing offices, and one SSA
                                                              field office in Cleveland, Ohio. The
                                                              hearing offices have already held
                                                              several hearings using the new
                                                              equipment. The ALJs’ feedback has
                                                              been very positive. The pilot will run
                                                              until September 2008.
Mandate            FIT is an initiative designed to           From October through March 2008,
Findings           improve the quality and consistency        FIT was used for 92 percent of
Integrated         of ALJ decisions by including the          decision drafts. There are
Templates (FIT)    most common decisional outcomes in         categories for which FIT templates
Decision Writing   decision writing templates. FIT            have not been created; therefore,
System             includes more than 1,700 templates         FIT usage is as close to 100 percent
                   covering a variety of issues.              as possible. Based on Appeals
                                                              Council reviews of cases from
                                                              October 2007 to January 2008,
                                                              decisions drafted with FIT continue
                                                              to demonstrate better quality than
                                                              cases not written with FIT.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                        H-5
   Initiative                   Description                                   Status
Streamlined Fully   An ALJ must prepare instructions for       The new templates were
Favorable           the decision, and then a decision          downloaded in October 2007 and
Decision Format     writer must read the file and these        are now available to all users.
                    instructions to integrate the two into a
                    fully favorable decision using FIT
                    templates. With this initiative, ALJs
                    can draft more of their own decisions
                    using a FIT template to create
                    instructions, which are used to
                    generate the rationale of the decision.
                    The decision and appropriate notice
                    are automatically generated,
                    eliminating the need for decision
                    writer assistance.
Update Hearing      New updates were needed to support         SSA spent approximately $1 million
Office Systems      electronic folder processing.              in FY 2008 to update the hearing
Infrastructure      Specifically, updates were needed to       office systems infrastructure.
                    increase the capacity of the               Specifically, the Office of Systems
                    infrastructure underlying the              purchased and installed servers,
                    electronic folder and provide              video teleconferencing equipment,
                    equipment required to support new          and telecommunications equipment
                    automation initiatives for ODAR.           in hearing offices. Systems staff
                                                               also supported the relocation of
                                                               10 hearing offices and a central
                                                               office component.
Provide Support     This initiative will allow documents       This initiative is in the planning and
to Send             such as earnings records and queries       analysis stage and will continue in
Additional          to be sent directly to the electronic      FY 2008.
Documents to the    folder, eliminating the need for
Electronic Folder   hearing office employees to print
                    them and scan them into the
                    electronic folder.
Automated           This initiative will give CPMS the         The resource needs for this initiative
Noticing            ability to automatically produce the       are being assessed.
                    appropriate notice based on stored
                    data.
Develop a New       The Office of Systems designed and         Validation of ARPS took place in
Case Processing     built the Appeals Review Processing        December 2007. Staff and
and Management      System (ARPS) which allows the             managers were trained in
System for the      Appeals Council to process electronic      January 2008. Conversion to the
Appeals Council     folder cases. Another major benefit        new system took place in
                    of this new system includes SSA-           March 2008.
                    wide access to the case control
                    system.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                          H-6
   Initiative                    Description                                     Status
Extend             Communication and cooperation                  A national workgroup made up of
Cooperation        between all components involved in             representatives from DCO and
Between SSA        the disability process is necessary to         ODAR was formed to encourage
Components that    ensure that the needs of all are               regional and local initiatives for
Process            considered and met when adopting               enhanced communication and
Disability Cases   business processes and policies.               cooperation. There have been a
– “One SSA”                                                       number of successful initiatives on
                                                                  the regional level, including RCALJs
                                                                  attending SSA Executive Staff
                                                                  Meetings, SSA Regional
                                                                  Commissioners speaking at ODAR
                                                                  meetings, hearing office and field
                                                                  office exchange visits, temporary
                                                                  promotions and details of field office
                                                                  employees to ODAR, SSA policy
                                                                  experts and OQP staff providing
                                                                  assistance to ALJs on non-disability
                                                                  issues, and OQP providing training
                                                                  to ODAR.
Establish a        The goal of this initiative is to facilitate   Teams of employees from ODAR
Standardized       timely and legally sufficient decisions        and OQP visited at least six hearing
Electronic         by achieving and maintaining                   offices between September and
Business           effective, efficient, and consistent           December 2007 to gather
Process            case processing methods and office             information about the hearing
                   organizational structures through              process and to identify best
                   ODAR. This will maximize the quality           practices. Based on these visits, a
                   of ODAR’s operation by improving               review team submitted a proposed
                   accuracy, timeliness, productivity,            standardized electronic business
                   cost-efficiency, and service to the            process description to OCALJ in
                   public.                                        February 2008. OCALJ has
                                                                  solicited comments from Regional
                                                                  Offices. The Downey, California
                                                                  and Grand Rapids, Michigan
                                                                  Hearing Offices have been selected
                                                                  to serve as a test sites.
Implement          ODAR is developing a quality                   The quality assurance initiative is
Quality            assurance program for the hearing              being developed in conjunction with
Assurance          process that will provide in line review       the standardized electronic business
Program for        of the claim file, scheduling process,         process. ODAR is working with
Hearing Process    and decision drafting to ensure timely         OQP to develop review sheets to
                   and legally sufficient hearings and            capture data and track information.
                   decisions. Regional Office personnel           ODAR is also working on a formula
                   will be charged with the responsibility        to select cases for review. OQP
                   of overseeing the quality assurance            found an initial sample of decisions
                   program.                                       issued by Attorney Adjudicators to
                                                                  be 95 percent accurate.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                            H-7
   Initiative                   Description                                   Status
Expand OQP         Historically, the national                   OQP has completed its review of
Review of          reconsideration denial accuracy rate         cases from the first group of five
Reconsideration    averaged around 90 percent. The              DDSs and is waiting for the DDSs to
Denials Using      goals of this initiative are to detect       return cases that were cited in their
Profiles           and correct erroneous denial                 review. As soon as all data is
                   determinations, provide feedback to          collected and analyzed, OQP will
                   DDSs, make recommendations, and              release a report on its findings.
                   reduce the volume of hearing
                   requests. OQP will review
                   approximately 14,000 reconsideration
                   denial determinations drawn
                   randomly during 1 year from 15 DDSs
                   that have low accuracy.
Provide Improved   ODAR will use the latest information,        The first Hearing Office Director and
Training to        tools, and methodologies to develop          two Group Supervisor classes were
Hearing Office     an effective, dynamic, and                   held in July and August 2007. The
Management         challenging training curriculum for          Hearing Office Chief ALJ class was
Teams              newly promoted ODAR management               held in July 2007. The Leadership
                   officials. This training will consist of a   and Training cadres continuously
                   three-phase approach involving               update a training website. The site
                   orientation, distance learning, and          provides a guide for all three phases
                   hearing operation specific classroom         of training and contains links to
                   training.                                    many valuable resources.
Co-locate          ODAR has a variety of sites to hold          A joint workgroup was formed with
Remote Hearing     hearings, including temporary space          ODAR’s Office of Management and
Sites with Field   in hotels, courthouses, schools, and         OCALJ and Operations members.
Offices            conference centers. ODAR also                The workgroup has reviewed
                   established many permanent remote            current remote site data, pending
                   sites which were not connected to the        workloads, and the feasibility of
                   SSA network. The goal of this                co-locating hearing sites with field
                   initiative is to develop a plan to co-       offices. In March 2008, the
                   locate hearing sites with SSA field          workgroup presented a plan to the
                   offices, create national standards and       Commissioner. Plans are to look at
                   requirements for remote hearing              co-location opportunities as leases
                   sites, and address security concerns.        expire.
Effectuate         This initiative is designed to prevent       In December 2007, OCALJ
Temporary          cases from aging by assisting the            presented the Commissioner a
Service Area       most heavily impacted hearing offices        Service Area Realignment Plan.
Realignments       with processing their workloads. It is       The plan is designed to move
and Continue       a two-pronged initiative, which in the       workloads from regions with high
Interregional      first phase will include permanent           receipts and pendings (Chicago and
Case Transfers     inter-regional case transfers. The           Kansas City) to regions with lower
                   second phase will involve realignment        receipts and pendings (Boston and
                   of targeted hearing office service           San Francisco). In February 2008,
                   areas.                                       OCALJ explained the plan to
                                                                Regional Chief ALJs and provided
                                                                procedures for the transfer of cases.
                                                                ODAR continues to monitor these
                                                                transfers for possible refinements.



Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                         H-8
   Initiative                   Description                                   Status
Continue           Hearing offices continue to use the         In FY 2008, ODAR conducted a
Decision Writer    decision writer statistical index report    decision writer training class for the
Productivity       introduced in the beginning of              NHC and plans to conduct five more
Improvement        FY 2007 to assess decision writer           sessions for paralegals and
Initiative         productivity.                               attorneys to ensure that all decision
                                                               writers are fully trained.
Use Weekly         Traditionally, management                   In FY 2007 and continuing into
Workload           information for the hearing operation       FY 2008, the Chief ALJ has been
Reporting and      has been reported on a monthly              strongly encouraging managers to
Monitoring         basis. While reasons exist for this         monitor workload processing data
                   approach, it may result in delays in        on a weekly basis and ODAR
                   case processing as employees                continues to develop workload
                   process more cases at the end of the        reports to monitor hearing office
                   month to meet monthly goals.                performance this way.
Have Appeals       Some requests for review that come          From October 2007 to April 2008,
Council Issue      before the Appeals Council contain          Appeals Council decisions were
Final Decisions    minor technical errors that may             2.9 percent of all actions while
when Possible to   compromise the support of the               remands were 22.9 percent. The
Reduce             decision in court, but do not affect the    Appeals Council estimates that from
Remands            conclusion on entitlement to benefits.      July 2007 to April 2008, the
                   Typically, the Appeals Council              combination of this initiative with the
                   remands most of these cases to the          expanded use of FIT resulted in
                   hearing level to address the                2,910 fewer cases remanded to
                   deficiency. Under this initiative, if the   hearing offices.
                   case does not require a hearing or
                   more development, the Appeals
                   Council will consider issuing a new
                   decision with the technical issue
                   corrected. This should reduce overall
                   processing time for the claimant and
                   the number of remands.
Improved Public    The goal of this initiative is to make      The Office of the General Counsel,
ALJ Alleged        the ALJ complaint process both fair         OCALJ, Office of Appellate
Misconduct         and effective for SSA, the ALJs, and        Operations, and Office of Labor
Complaint          the American people.                        Management and Employee
Process                                                        Relations had a series of meetings
                                                               to formulate improvements under
                                                               current rules and to clarify the
                                                               complaint process for claimants.
                                                               ODAR is now in the process of
                                                               putting those improvements into
                                                               place.




Administrative Law Judge and Hearing Office Performance (A-07-08-28094)                          H-9
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
